<html>
<title> - OVERSIGHT OF THE BUREAU OF PRISONS AND INMATE REENTRY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


         OVERSIGHT OF THE BUREAU OF PRISONS AND INMATE REENTRY

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2017

                               __________

                           Serial No. 115-95

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
             
             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-401 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ef889f80af8c9a9c9b878a839fc18c8082c1">[email&#160;protected]</a>              
             
             
          
             
             
             Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Stacey E. Plaskett, Virgin Islands
Rod Blum, Iowa                       Val Butler Demings, Florida
Jody B. Hice, Georgia                Raja Krishnamoorthi, Illinois
Steve Russell, Oklahoma              Jamie Raskin, Maryland
Glenn Grothman, Wisconsin            Peter Welch, Vermont
Will Hurd, Texas                     Matt Cartwright, Pennsylvania
Gary J. Palmer, Alabama              Mark DeSaulnier, California
James Comer, Kentucky                Jimmy Gomez, California
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
                      Sean Brebbia, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 13, 2017................................     1

                               WITNESSES

The Honorable Mark S. Inch, Director, Federal Bureau of Prisons
    Oral Statement...............................................     6
    Written Statement............................................     9
The Honorable Michael E. Horowitz, Inspector General, U.S. 
  Department of Justice
    Oral Statement...............................................    16
    Written Statement............................................    18
Ms. Diana Maurer, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office
    Oral Statement...............................................    23
    Written Statement............................................    25
Ms. Jennifer Doleac, Assistant Professor of Public Policy & 
  Economics, Director Justice Tech Lab, University of Virginia
    Oral Statement...............................................    41
    Written Statement............................................    43
Ms. Cynthia W. Roseberry, Executive Director, Council for Court 
  Excellence
    Oral Statement...............................................    69
    Written Statement............................................    72
Mr. Glenn E. Martin, President and Founder, JustleadershipUSA
    Oral Statement...............................................    84
    Written Statement............................................    86

                                APPENDIX

Representative Darrell Issa Statement for the Record.............   138
October 3, 2017, Democratic Bicameral Letter to the Federal 
  Bureau of Prisons submitted by Mr. Clay........................   139
October 27, 2017, Federal Bureau of Prisons Response Letter 
  submitted by Mr. Clay..........................................   144
Follow-up Response from Mr. Inch, Federal Bureau of Prisons, to 
  Mr. Grothman...................................................   146
Follow-up Response from Mr. Inch, Federal Bureau of Prisons, to 
  Mr. Comer......................................................   147
Follow-up Response from Mr. Inch, Federal Bureau of Prisons, to 
  Ms. Watson Coleman.............................................   148
Response from Mr. Inch, Federal Bureau of Prisons, to Questions 
  for the Record.................................................   149

 
         OVERSIGHT OF THE BUREAU OF PRISONS AND INMATE REENTRY

                              ----------                              


                      Wednesday, December 13, 2017

                   House of Representatives
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
2154, Rayburn House Office Building, Hon. Trey Gowdy [chairman 
of the committee] presiding.
    Present: Representatives Gowdy, Jordan, Amash, Gosar, 
Massie, Walker, Blum, Russell, Grothman, Hurd, Palmer, Comer, 
Mitchell, Cummings, Maloney, Norton, Clay, Connolly, Kelly, 
Lawrence, Watson Coleman, Demings, Krishnamoorthi, Welch, 
Cartwright, and DeSaulnier.
    Chairman Gowdy. Good morning. The committee will come to 
order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    I will recognize myself for an opening statement, and then 
the gentleman from Maryland.
    First of all, welcome to our witnesses. Thank you for being 
here.
    A criminal justice system that is both fair and perceived 
as fair, that is both respected and worthy of being respected, 
is one of the foundations of our country. Next door, even as we 
are meeting here, the Deputy Attorney General is appearing 
before the Judiciary Committee. Last week, the head of the FBI 
appeared. Two weeks ago, the Attorney General himself appeared 
at Judiciary.
    So while Judiciary does have principal jurisdiction over 
matters related to our justice system, Chairman Goodlatte and, 
frankly, Ranking Member Cummings deserve our appreciation and 
gratitude for recognizing that this issue cuts across several 
aspects of government, and a hearing in this committee could be 
and, hopefully, will be constructive as well.
    Our justice system must both be fair in reality and 
perceived as fair. Our justice system must be proportional. It 
must protect the innocent. It must punish those who have not 
conformed to societal norms, with those societal norms being 
reflected and codified in what we call the law.
    Fair, even-handed, proportional, just, equal in intent and 
application, those are expectations. Those expectations are 
lofty. Some might argue they are aspirational, but I would 
rather aspire to fairness and fail than set any lower standard.
    Part of our justice system includes correction, 
rehabilitation, and acknowledgment that the vast majority of 
those who are incarcerated will be out, back in society. So for 
the benefit of all--society as a whole, those who are likely to 
come in contact with those former incarcerated folks, and those 
formerly incarcerated themselves--we must find a common 
sensical plan rooted in fact and evidence for reentry, for 
assimilation, for rejoining an ordered community and avoiding 
the tyranny of recidivism.
    It is in all of our interest these reentries be successful. 
It is in all of our interest these transitions back into 
society are successful. Those leaving incarceration for reentry 
into society will often find society has changed. Anyone 
reentering society, even after the shortest of absences, will 
find things have changed dramatically.
    Speaker John Boehner was not in prison, although he may 
have felt like it when he was the Speaker of the House. He 
recently reentered society after a lifetime of public service. 
And hearing him tell stories of clicking on the wrong Uber ride 
and sharing a ride with lots of different people that he did 
not intend to share the ride with, hearing him tell stories of 
not being able to find the latch that opens the gas tank on his 
car because he hadn't driven in years, those may be funny 
stories because he is a quick learner, and he had people to 
help. Imagine having to get a job to pay your restitution. 
Needing clothes for an interview. Needing a ride to an 
interview. Knowing how to interview. And dreading the whole 
time when the question comes up of ``Have you been arrested or 
convicted?''
    I doubt anyone will ever accuse me of being soft on crime. 
To the contrary, there would be very few Members of Congress 
ever who have sent more people to prison. As much as I believe 
in law and order and respect for the rule of law, we also have 
a deeply held conviction that paying your debt to society pays 
the debt.
    We are a nation of second chances. We love redemption 
stories. It would be nice if our criminal justice system 
produced more of them.
    With that, I would yield to my friend from North Carolina.
    Mr. Walker. Thank you, Mr. Chairman.
    Families are the building blocks of communities. It is hard 
to imagine anything more disruptive to a family than losing a 
parent or a spouse to incarceration. To have a loved one 
removed from your life and sit in a prison must be an 
overwhelmingly difficult experience for both the inmate and the 
family.
    I can still remember as a young child, being the son of a 
pastor who was also a prison chaplain, still sitting on the 
bunks of those inmates, in many cases hearing the sad stories. 
Now make no mistake, I firmly believe that when people break 
the law, there must be consequences, and incarceration is 
oftentimes the appropriate consequence.
    However, the justice system and the Bureau of Prisons also 
have a responsibility to help rehabilitate that person and help 
the inmate have a successful reentry back into our communities. 
This makes sense from both a public safety perspective and 
borne out of compassion for our fellow citizens.
    Because what is clear is that virtually all of the inmates 
in Federal prisons are going back and returning to their 
communities and their families. When they are released, the 
question should be asked. Will they be better, or will they be 
worse?
    See, redemption has always been an American ideal. We need 
former prisoners to integrate back into society, restore 
stability to their families, and contribute to their 
communities. Inmate release preparation and programming is 
essential to developing and restoring hope--hope that they will 
never return to prison, hope that they will find a job, hope 
that they will one day be able to support their family, and 
hope that they will build a good life after prison.
    For that reason, rehabilitation and reentry efforts must be 
real, and they must be effective. Three weeks ago, I spoke in 
Winston-Salem, North Carolina, at a wonderful nonprofit 
organization, the Winston-Salem Prison Ministry, doing a great 
job. But the Bureau of Prisons must also make successful inmate 
rehabilitation and reentry a priority. The Bureau must also 
evaluate its programs and reentry decisions so that their 
effectiveness can be measured based on evidence of success.
    We have got to figure out what reentry and rehabilitation 
strategies work best. Does release to a halfway house improve 
an inmate's chances at successful entry? Are some halfway 
houses more effective than others at assisting inmates to 
succeed? Would placing more inmates directly into home 
confinement reduce recidivism? Do certain education or life 
skills tend to lead to more successful inmate recovery?
    These are all questions I look forward to discussing today. 
I believe that evidence-based assessments are essential to 
determine what programs work, especially those that work well 
at reducing recidivism and what programs simply do not work 
very well.
    I am grateful for all the witnesses here today. Appreciate 
your expertise. Reducing recidivism and improving inmate 
reentry services is a challenge, but it is one we must all be 
committed to achieving.
    With that, Mr. Chairman, I yield back.
    Chairman Gowdy. The gentleman from North Carolina yields 
back.
    We will now recognize the gentleman from Maryland, Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I want to thank you, Chairman Gowdy, for calling today's 
hearing to discuss the Fair Chance Act and other ways to 
address barriers faced by formerly incarcerated individuals.
    This is a very important hearing to me because I live in a 
neighborhood where many of these people return, and I see what 
they go through. While they may spend time in prison, they find 
that there are so many barriers to their moving forward that 
they remain in prison in a sense until the day they die.
    Congressman Walker, I want to applaud you for what you said 
and what you do in this area, and you said some very important 
words. You said whatever we do with regard to these folks, we 
have to be--it has to be real, and it has to be effective. 
These are people's lives.
    They come home, can't get a job. Can't do anything. And in 
many instances, not trained to do anything and coming into a 
world which is not the world they left. So, therefore, this is 
a critical hearing and the latest in our committee's efforts to 
examine these questions.
    I also appreciate this opportunity to hear from the new 
Director of the Bureau of Prisons, General Mark Inch, and we 
welcome you to our committee. Study after study has shown that 
finding and keeping a job is the single most significant factor 
for reducing recidivism and for helping formerly incarcerated 
individuals successfully reenter our society.
    I used to run voluntarily a reentry program, and we found 
that if we could get a person a job and could direct them away 
from the corners that sent them there, and get them more 
involved in their families and give them some kind of support 
group, they were usually successful. Steady and meaningful 
employment is a proven way to give these people a real second 
chance and to increase the contributions they make to our 
communities.
    Unfortunately, many people who have paid their debt to 
society are never given a fair chance at getting a job. You try 
not having a job for a month or 2 months or 3 months. Try it. 
And no source of income. Try it. And you got to feed three 
children. Try it.
    And every door that you knock on, people are saying, uh-oh, 
yes, you may have served your time, but we got to put a bar up. 
So you can't get past this bar because now you have this 
record. Many employers automatically screen out these 
applicants, even those who are highly qualified. These 
individuals never make it to an interview.
    The Fair Chance Act is a bipartisan legislation that I 
introduced with Representative Darrell Issa to address these 
challenges in the Federal Government. In the Senate, Senator 
Cory Booker and Senator Ron Johnson have shown strong 
bipartisan leadership on this bill, and the Homeland Security 
and Government Affairs Committee approved the bill earlier this 
year by voice vote. And again, Mr. Chairman, I thank you for 
all you have done to try to push this along.
    Our bill allows Federal agencies and contractors to ask 
about criminal histories at the final stages of the hiring 
process after a conditional offer has been made, rather than 
automatically screening people out from the beginning. It does 
not require any agency or contractor to hire anyone if they 
don't want to, and of course, it includes important exceptions 
for national security, law enforcement, and positions for which 
criminal history information is required by law.
    Unfortunately, we are not at the forefront of these 
efforts. We are actually lagging behind. Already 30 States and 
more than 150 cities and counties have instituted, and I quote, 
``ban-the-box'' policies. These include States ranging from 
California, Colorado, Connecticut, Kentucky, Indiana, and Utah. 
That is right, I said Utah.
    In addition, companies like Walmart, Koch Industries, 
Target, Home Depot, Starbucks, Bed, Bath, and Beyond have 
embraced ban-the-box, as well as the number-one employer in 
Baltimore, Johns Hopkins University and Hospital, where we have 
about 30,000 employees. They have made it a part of their 
mission to address this issue in this way.
    I want to thank Glenn Martin for being here today to 
discuss the proven success of ban-the-box policies. Mr. Martin 
is a leading advocate for the formerly incarcerated, and he 
knows firsthand what it is like to face barriers to reentry.
    We must also face the reality that our Federal prison 
system is not doing enough to prepare inmates for reentry. That 
is very, very important. There is a bipartisan consensus in 
Congress and among States that we must do more in this area. 
Recent reports from the Department of Justice Inspector 
General, the Government Accountability Office, and the Charles 
Colson Task Force on Federal Corrections have raised alarming 
concerns about the lack of sufficient services and a failure to 
track and measure the effectiveness of existing services.
    If the system is providing ineffective service in areas 
such as employment skills training, postsecondary education, 
healthcare, and substance abuse treatment, Federal inmates will 
have great difficulty readjusting to life outside prison when 
they are released.
    I am also concerned about the recent reports of closures of 
Federal residential reentry centers, or halfway houses, and the 
cutbacks in other transition services, including at a Baltimore 
location. We need to know more about the reasons for these 
closures. If the Bureau of Prisons is not tracking data on 
these services or measuring their effectiveness at reducing 
recidivism, then it cannot know if its programs are working or 
if cuts are, indeed, justified.
    We cannot do our work effectively and efficiently if 
information is not available or does not exist. I am heartened 
that the Bureau agreed to implement many recommendations to 
improve reentry services and better track their effectiveness. 
I look forward to hearing from Director Inch, Inspector General 
Horowitz, and Ms. Maurer about the progress of that 
implementation.
    I also want to thank Cynthia Roseberry for her work on the 
Colson task force. I am particularly interested in the task 
force's recommendations to improve BOP oversight, including the 
creation of a new performance, accountability, and oversight 
board.
    Finally, I am troubled by the decision by the Trump 
administration earlier this year to reinstitute the use of 
Federal private prisons. Following a critical Inspector General 
report documenting numerous health and public safety issues, 
Deputy Attorney General Sally Yates announced that the 
Department would end the use of these facilities in August of 
2016, but Attorney General Sessions reversed this decision.
    Director Inch, I look forward to hearing from you and your 
views on these topics and your plans for the Federal prison 
system. I know Chairman Gowdy shares many of these concerns, 
and I look forward to continuing a productive and open 
communication to ensure the transparency, the accountability, 
and the effectiveness of our Federal prisons.
    And with that, Mr. Chairman, I will yield back.
    Chairman Gowdy. The gentleman from Maryland yields back.
    Before I introduce our distinguished panel of witnesses, I 
do want to acknowledge that there is precedent, and I 
understand the precedent and I understand the rationale behind 
it, for some Government witnesses, particularly in the past, 
have had single panels as opposed to what we have this morning. 
So I want to thank all of the Government witnesses that in the 
past may have had a single panel. I do understand the rationale 
behind it.
    What I have fully learned in 7 years of being in Congress 
is that the Members benefit from single panels. The attendance 
is better. Therefore, the issue is more fully developed. The 
issues are more fully developed.
    So I want to thank all the witnesses for coming and for 
allowing the Members to have a single panel, which is 
infinitely better for the issue.
    With that, I will introduce you en banc from my left to 
right, and then I will administer an oath, and then we will 
recognize you individually for your opening statement. And to 
the extent you can, keep it within 5 minutes. Just keep in 
mind, we have your full opening statement. So nothing you 
wanted us know will not be known. It will just be communicated 
in writing, as opposed to orally.
    We are fortunate to have the Honorable Mark Inch, Director 
of the Federal Bureau of Prisons. Equally fortunate to have the 
Honorable Michael Horowitz, Inspector General for the 
Department of Justice; Ms. Diana Mauer, Director of Homeland 
Security and Justice at the Government Accountability Office; 
Ms. Jennifer Doleac, assistant professor of public policy and 
economics at University of Virginia's Batten School and the 
director of Justice Tech Lab; Ms. Cynthia Roseberry, executive 
director of the Council for Court Excellence; and Mr. Glenn 
Martin, president and founder of JustLeadershipUSA.
    If I could get you to all please stand and raise your right 
hands, I will administer the oath, as we do for all witnesses.
    Do you solemnly swear or affirm that the testimony you are 
about to give shall be the truth, the whole truth, and nothing 
but the truth, so help you God?
    [Response.]
    Chairman Gowdy. May the record reflect the witnesses 
answered in the affirmative. You may take your seats.
    With that, and again, with the reminder that we have a 
lighting system to help you--green means go, yellow means speed 
up. Try to get under the light before it turns red.
    With that, we would recognize Director Inch.

                       WITNESS STATEMENTS

                 STATEMENT OF HON. MARK S. INCH

    Mr. Inch. Good morning, Chairman Gowdy, Ranking Member 
Cummings, and members of the committee.
    I appreciate the opportunity to appear before you today and 
to discuss the mission and the operation of the Federal Bureau 
of Prisons. I am humbled to serve as the agency's ninth 
director, and I look forward to being part of what the Bureau 
does for our Nation and for the corrections profession.
    I'm also honored to speak on behalf of the nearly 39,000 
Bureau staff, corrections professionals who support the 
agency's law enforcement mission. These dedicated public 
servants are on the job 24 hours a day, 7 days a week, 
operating Federal prisons that are safe, cost-effective, and 
humane.
    It is through their hard work and dedication that the 
Bureau has earned its excellent reputation. This is an agency I 
have admired for years from the other side of the Potomac.
    Chairman Gowdy and Ranking Member Cummings, I want to thank 
you for your support of the Bureau. Our mission is 
challenging--protecting the safety of the public, our staff, 
and inmates, while also providing inmates with skills needed to 
successfully return to the communities.
    Our prisons hold tens of thousands of drug traffickers, 
many weapons offenders, and other dangerous individuals. We 
house nearly 23,000 gang-affiliated inmates who pose a threat 
in and outside our facilities. More than 40 percent of our 
inmates classify as high and medium security, due in large part 
to extensive criminal histories, severity of the current 
offense, and the histories of violence. Yet and still, our 
staff answer the call to duty every day.
    I also wish to thank the Office of the Inspector General in 
the Government Accountability Office for their hard work. Their 
audits, along with the Bureau's own internal auditing process 
and the regular accreditation audits by the American 
Correctional Association, are critical to ensuring that we 
remain focused on performing corrections to nationally 
recognized standards.
    I come to the Bureau with a great appreciation for our 
mission. I have a well-developed set of principles about our 
individual responsibilities as corrections professionals. I 
applaud the Bureau's philosophy that all staff are correctional 
workers first. I am convinced that this philosophy is a 
critical element in the long-term effectiveness and success of 
the agency.
    One of the things I love about the corrections profession 
is the selfless service demonstrated by those who choose this 
career. They dedicate their lives to helping and protecting 
others, yet receive little recognition and even less praise. 
Every day, Bureau staff run into situations from which others 
would run away so that they can ensure the safety of the 
public, the staff, and the inmates for whom they are 
responsible.
    As the leader of the country's premier department of 
corrections, I am committed to ensuring the Bureau of Prisons 
staff exhibit the highest ideals of our corrections profession 
through the shared values, established standards of individual 
and institutional performance, and commitment to the character 
and competence of our profession. And we've put those qualities 
to the service of our stakeholders, the public, victims, and 
inmates.
    I've spent these first 90 days on the job learning as much 
as possible about the Bureau. Although I'm not new to the 
corrections profession, I am impressed that all of the prisons 
I now oversee today are accredited by the American Correctional 
Association, as were the prisons I oversaw in the military. And 
all of our prisons are PREA compliant as well.
    I've already begun reviewing our major policies and 
procedures, and I'm poised to start identifying both strengths 
and weaknesses. My initial focus is on public safety and inmate 
reentry and also overall agency efficiency and effectiveness. 
The thorough work by and of the OIG and the GAO is certainly an 
important guidepost to me in this process.
    The Bureau looks forward to continuing to support the law 
enforcement efforts of the Department of Justice and the 
administration and fulfilling our critical role in the broader 
public safety efforts of the Federal, State, and local law 
enforcement professionals.
    Chairman Gowdy, Ranking Member Cummings, and members of the 
committee, this concludes my formal statement. I'd be happy to 
answer any questions you may have.
    [Prepared statement of Mr. Inch follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Thank you, Director.
    Inspector General Horowitz?

             STATEMENT OF HON. MICHAEL E. HOROWITZ

    Mr. Horowitz. Thank you, Mr. Chairman, Ranking Member 
Cummings, members of the committee. Thank you for inviting me 
to testify at today's important hearing.
    The BOP is the largest Department of Justice component by 
number of employees, even larger than the FBI, and has the 
second-largest budget at the DOJ. Moreover, it now consumes 25 
percent of the Department of Justice's budget compared to 18 
percent 20 years ago. Yet despite the budget growth, the 
Federal prison system remains over capacity, particularly at 
its high-security institutions.
    Given the BOP's size and its critically important 
responsibilities, the OIG has conducted and continues to 
conduct substantial oversight of the BOP and its programs. For 
example, we've recently issued reviews and audits of the BOP's 
management of its aging inmate population, the monitoring of 
Federal contract prisons, efforts to interdict contraband, 
implementation of the Prison Rape Elimination Act, efforts to 
address the increasing costs of Federal inmate healthcare, use 
of the compassionate release program, and management of Federal 
Prison Industries, just to name a few. And throughout our work, 
the BOP has taken our reports seriously and has been responsive 
to our findings.
    Let me briefly discuss our oversight of BOP programs that 
are intended to prepare inmates for release from prison and 
back into the community. Whatever one's view is of the Federal 
sentencing laws, whether you think they're fair, too harsh, or 
too lenient, there should be agreement that it is critical for 
the BOP to have effective programs for transitioning Federal 
inmates back into society.
    The reality is that once an inmate completes their 
sentence, absent unusual or unique circumstances, the BOP must 
release that person from prison so they can return to our 
communities. That's true whether--whether they've committed a 
violent crime or a white collar crime, whether they were 
sentenced to a long prison sentence or a short prison sentence, 
and whether they acted dangerously in jail or received good 
time credit.
    The need for effective transition and reentry programs is 
demonstrated by a recent U.S. Sentencing Commission report, 
which determined that nearly half of the Federal inmates 
released in 2005 were rearrested within 8 years of their 
release for committing a new crime or for violating their 
supervising conditions--their supervision conditions.
    The OIG has conducted several reviews that identify ways 
the BOP can improve the management and administration of its 
reentry programs. The OIG's recent review of the BOP's release 
preparation program found significant deficiencies that the BOP 
needed to address and which the BOP has told us since our 
report that it has, in fact, undertaken.
    Another BOP reentry program involves the placement of 
inmates in residential reentry centers, RRCs, also known as 
halfway houses, and in home confinement while serving the 
remainder of their sentence. Pursuant to the Second Chance Act, 
all Federal inmates are eligible for RRC and home confinement 
placement. RRCs provide a supervised environment that supports 
inmates in finding employment and housing; completing necessary 
programming, such as drug abuse treatment; participating in 
counseling; and strengthening ties to family, friends, and 
community.
    The BOP spends about $360 million each year on RRCs and 
home confinement costs, yet a recent OIG review found 
significant issues with how the BOP was managing its RRC 
program. Once again, the BOP has been responsive to the 
recommendations we made and has reported to us on the steps it 
is currently taking to address them.
    Another area where we recently reviewed--that we recently 
reviewed involved BOP's management of inmates with mental 
health issues. Our review identified several issues of concern, 
including that BOP mental health staff did not always document 
inmates' mental health disorders, and therefore, the BOP was 
unable to accurately determine the number of inmates with 
mental health issues.
    In addition, we were concerned that BOP was using 
restrictive housing to house inmates with mental health 
conditions because those--that housing could negatively impact 
further their mental health treatment and, research shows, come 
out of those units further disabled and further ill-equipped to 
return to their communities.
    We also were concerned because we identified several 
instances where the BOP released inmates directly from 
restrictive housing units into communities, and we were 
particularly concerned about that.
    Again, the BOP is responding to our recommendations, and we 
look forward to reviewing them as we hear about them.
    That concludes my prepared statement. I'd be happy to 
answer any questions the committee may have.
    [Prepared statement of Mr. Horowitz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Thank you, Mr. Inspector General.
    Ms. Mauer?

                   STATEMENT OF DIANA MAURER

    Ms. Mauer. Well, good morning, Chairman Gowdy and Ranking 
Member Cummings and other Members and staff. I'm pleased to be 
here today to discuss the findings from our oversight efforts 
of offender reentry programs at the Bureau of Prisons.
    Every year, thousands of Federal inmates complete their 
sentences, leave prison, and reenter society. The hope is they 
will reunite with family, become employed, and rejoin their 
community as a peaceful, law-abiding member. And preparing 
people for this reentry is one of the main goals of the Federal 
correctional system.
    It's also one of the most difficult to accomplish. And as 
was already mentioned, one recent study found that nearly half 
of former Federal inmates were rearrested within 8 years of 
release, and about a quarter were reincarcerated.
    Now people who have served time in Federal prison face 
significant challenges. They often have less education, less 
employment history, and less family support than the rest of 
society. They also have to contend with various penalties and 
disadvantages after completing their sentences. And as we 
reported in September, these collateral consequences can limit 
many aspects of a person's life, such as employment, education, 
housing, and access to Government benefits.
    Our analysis found 641 Federal collateral consequences that 
can be triggered by a Federal nonviolent drug conviction. Over 
three-quarters of these consequences last a lifetime, and 80 
percent lack a prescribed way for a person to obtain relief 
from the consequence.
    Now, of course, GAO is not taking a position on whether we 
have the right number of collateral consequences. That's--
that's not our role. But we did interview 14 stakeholders from 
across the criminal justice spectrum, including judges, 
prosecutors, and victims' rights advocates. And we heard a 
striking consensus. Thirteen of 14 agreed on two key points.
    First, they believe the Federal Government should take 
action to mitigate collateral consequences and, second, doing 
so could reduce the likelihood that people with prior 
convictions reoffend. They also agreed that any review of 
collateral consequences should factor in the paramount goal of 
public safety. Many of the stakeholders we spoke to believe 
that reexamining the current mix of consequences, their 
duration, and the ability to seek relief could have a positive 
impact on recidivism.
    And breaking the cycle of recidivism is what successful 
reentry programs are all about. Over the past several years, 
we've seen increased focus on reentry at BOP. For example, BOP 
created a Reentry Services Division and developed a list of 
reentry programs.
    However, when we looked at that list, we found that BOP 
could not clearly demonstrate whether the reentry programs were 
actually working. And in response to our recommendation, BOP 
has developed and begun implementing a plan to evaluate these 
programs.
    BOP has also made great strides determining the cost of 
home confinement. BOP used to charge a flat rate that was 
simply half the cost of local reentry--residential reentry 
centers, or RRCs. But in response to our recommendation, BOP 
has issued 184 solicitations with a separate service line-item 
for home confinement services. As a result, BOP is now better 
positioned to weigh the cost and benefits of home confinement.
    But they still need to take action on two of our 
recommendations that really get to the very heart of this 
morning's hearing. Two years ago, we found something all too 
common in Federal programs. BOP was tracking program outputs, 
not outcomes. Specifically, they had detailed data on the 
number of inmates in RRCs and home confinement, but BOP was not 
tracking the far more important outcomes from placing people in 
RRCs and home confinement, and it lacked measures to know how--
to know whether those outcomes indicated success. So it's still 
unclear how these programs affect recidivism.
    BOP has recently made progress implementing our 
recommendations. They started taking track--steps to track how 
individuals do during and after their time in an RRC, including 
surveying residents to get their perspectives on their 
experiences. While these are encouraging steps, they're still 
in the early stages, and we'll be monitoring BOP's progress 
until they fully implement our recommendations.
    In conclusion, we all hope the thousands of people who 
leave Federal prison every year are able to rejoin their 
families and gainfully contribute to their communities as law-
abiding citizens. Continued attention and focus from the Bureau 
of Prisons, continued congressional oversight, and full 
implementation of recommendations from GAO and the Inspector 
General will help make that more likely.
    Mr. Chairman, thank you for the opportunity to testify this 
morning. I look forward to your questions.
    [Prepared statement of Ms. Mauer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Yes, ma'am. Thank you, Ms. Mauer.
    Professor Doleac?

                  STATEMENT OF JENNIFER DOLEAC

    Ms. Doleac. Chairman Gowdy, Ranking Member Cummings, and 
other members of the committee, thank you for inviting me to 
testify in this hearing about prisoner reentry.
    I'm an assistant professor of public policy and economics 
at the University of Virginia. I'm also the director of the 
Justice Tech Lab, which works to find effective, scalable 
solutions to criminal justice problems.
    In addition to my roles at UVA, I'm a senior social 
scientist at the Lab at D.C., a research group in the mayor's 
office here in the District, and a nonresident fellow in 
economic studies at the Brookings Institution. I'm also a 
member of the Poverty, Employment, and Self-Sufficiency Network 
organized by the Institute for Research on Poverty at the 
University of Wisconsin.
    To each of these roles, I bring my expertise in the 
economics of crime and discrimination. In recent years, I've 
been particularly focused on the issue of prisoner reentry. In 
addition to a number of ongoing studies testing the impacts of 
new interventions on reentry outcomes, I've studied the effects 
of ban-the-box policies, also called fair chance policies. This 
is the topic I'll focus on today, though I'll note that the 
views I express here are my own and don't represent those of 
any of the organizations I'm affiliated with.
    Two-thirds of people who are released from prison will be 
arrested again within 3 years. This high recidivism rate 
signals our collective failure to help this group successfully 
reintegrate to civilian life. The question facing policymakers 
is what we can do to facilitate more successful reintegration 
and break that cycle of incarceration.
    Those who go through the criminal justice system face a 
wide array of challenges that make this task difficult. Those 
challenges include low education, limited and interrupted work 
histories, lack of stable housing, and high rates of substance 
abuse, mental illness, and emotional trauma. All of these 
factors help explain why this population has trouble finding 
stable employment upon release from prison.
    Ban-the-box aims to increase access to jobs by prohibiting 
employers from asking job applicants about their criminal 
histories until late in the hiring process. The hope is that if 
some people with records can get their foot in the door, those 
who are a good fit for the job will be able to communicate 
their work readiness during an interview before the employer 
runs a background check.
    But work readiness, the ability to show up on time every 
day and do a good job, is difficult to discern from a job 
application and even from an interview. Employers clearly 
believe that a criminal record is a negative signal about work 
readiness, and they're also worried about negligent hiring 
lawsuits and bad press that might result from hiring someone 
with a record.
    Unfortunately, ban-the-box does not do anything to address 
the reasons employers might be reluctant to hire someone with a 
criminal record. It just tells them they can't ask. Since many 
employers still don't want to hire people with criminal 
records, especially those with recent convictions, they may try 
to guess who has a record when they aren't allowed to ask up 
front.
    In the United States, young black men without college 
degrees are much more likely than others to have a recent 
conviction that might worry an employer. And so employers who 
want to avoid interviewing people with recent convictions may 
simply avoid interviewing applicants from this group. As a 
result, we might see ban-the-box hurt this group more than help 
them. Indeed, this is what has happened.
    In the written testimony I submitted to this committee, I 
summarized the empirical evidence from the best studies on this 
topic, as well as the broader literature on how information 
affects discrimination in the labor market. The evidence can be 
summarized as follows.
    First, delaying information about job applicants' criminal 
histories leads employers to discriminate against groups that 
are more likely to have a recent conviction. This hurts young, 
low-skilled black men who don't have criminal records.
    Second, the best evidence suggests that ban-the-box does 
not increase employment for people with criminal records and 
might even reduce it.
    Third, these findings are consistent with empirical 
evidence from other contexts, such as drug testing and credit 
check bans. Studies consistently show that removing information 
about characteristics that disadvantage protected groups 
actually hurts those groups more than it helps them. In the 
absence of information, employers do not simply assume the best 
about people. They try to guess who has the characteristics 
they're trying to avoid. Rather than reducing discrimination, 
this approach effectively broadens it to the entire group.
    Finally, effective approaches to this policy problem are 
likely to be policies that directly address employers' 
concerns, such as investing in rehabilitation, providing more 
information about applicants' work readiness, and clarifying 
employers' legal responsibilities in the hiring process.
    Overall, the academic literature provides strong evidence 
that despite the best intentions, ban-the-box has not helped 
people with criminal records and has harmed young, low-skilled 
black men without records, who already struggle in the labor 
market for a variety of reasons. Based on this evidence, I urge 
this committee to reject the Fair Chance Act and focus on other 
policy options that are likely to be more successful.
    Thank you, and I look forward to your questions.
    [Prepared statement of Ms. Doleac follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Thank you, Professor.
    Ms. Roseberry?

               STATEMENT OF CYNTHIA W. ROSEBERRY

    Ms. Roseberry. Chairman Gowdy, Ranking Member Cummings, and 
members of the committee and staff, thank you for inviting me 
to participate in today's oversight hearing on the Federal 
Bureau of Prisons and reentry.
    My perspective and understanding of the Bureau of Prisons 
comes from my experience as a Federal public defender, private 
criminal defense attorney in Atlanta and Chicago, as project 
manager of Clemency Project 2014, as executive director of the 
Council for Court Excellence, and as a member of the Charles 
Colson Task Force on Federal Corrections, a nine-person, 
bipartisan, congressional blue ribbon panel led by former 
Congressman J.C. Watts Jr. and former Congressman Alan Mollohan 
and supported ably by the Urban Institute.
    My comments are my own and not as a representative of any 
entity about which I speak.
    Since the sevenfold increase in its population in the 
1980s, the Bureau of Prisons has been operating at crisis 
levels for decades. People of color and people from poor 
communities, not unlike the one in which I was reared, Mr. 
Cummings, are largely part of the population in the world's 
largest incarcerated population.
    Despite recent reductions in population, overcrowding 
continues, spreading the staff thin, with staff members 
performing duties outside of their expertise. As a result, the 
Bureau of Prisons has not lived up to its goal of 
rehabilitation, missing the opportunity to improve public 
safety.
    As my former fellow Colson task force member John Wetzel, 
the Secretary of the Pennsylvania Department of Corrections, 
would say, public safety is a logical consequence of good 
corrections policy. Returning citizens need effective reentry 
programming, but BOP policies and practices have not kept up 
with best practices in the field. ``One size fits all'' does 
not work. Efforts must be, one, data driven; two, evidence-
based and individualized with measurable outcomes; and three, 
transparent.
    Data-driven efforts. Coordinated consistency in standards, 
practice, and data collection are essential to BOP's success. 
Crafting goals and measuring outcomes are accomplished by the 
collection of data. The Federal corrections system must also 
standardize assessment protocols and case management practices.
    As project manager of Clemency Project 2014, I witnessed 
the havoc wreaked by inconsistency throughout the system in 
something as simple as the coding of the statutes of 
conviction. As a practitioner, I have experienced firsthand how 
inconsistency in policies such as those where access to 
programming and client visitation and correspondence negatively 
impact reentry.
    It is critical that agencies within the Federal corrections 
systems work collaboratively to facilitate smooth transition 
home. The BOP must consistently coordinate with RRCs. Recently, 
one young woman who was scheduled for release to a halfway 
house had secured employment, only to be told that there was an 
error in her release date for several months. And other 
families report extended stays because of errors in release 
dates.
    The current system lacks the highly coordinated cross-
agency data-sharing platform and procedures that can improve 
the transition process. Critical information like completion of 
mental health evaluations is not always passed from the BOP to 
halfway houses through the supervision, leading to less 
effective reentry planning and support. D.C. Code offenders 
experience more difficulty because they are not housed close to 
D.C. before their reentry.
    Evidence-based. Although the evidence shows that 
individualized treatment and programs can improve outcomes, 
BOP's own study shows that out of its approximately 16,000 
available programs, only a handful are evidence-based. 
Evidence-based individualized programming would allow the BOP 
to establish priorities and make data-driven decisions like 
resource allocations and ways to maximize time outside of 
facilities for successful reentry. Educational, occupational, 
and other programs can respond to changes in demand through 
proper allocation.
    Recent reports of videoconferencing only has daunted some 
of the hopes of those who are incarcerated and their families. 
If BOP were to focus on the evidence that connections with 
families increases successful reentry, BOP could ease 
visitation difficulties without compromising security and 
expand programs designed to enhance family bonds, including 
those between incarcerated parents and children.
    As a 20-year defense lawyer, you might find it surprising 
to hear me say that I'm concerned about the safety of the staff 
at the BOP as well. They want to engage in professional 
corrections efforts. Evidence-based individualized program 
benefits BOP staff. If public safety is a natural outcome of 
good corrections policy, then safe working conditions result 
from the proper resource allocation that evidence-based 
individualized programming provides.
    Evidence-based program must begin at day one. The BOP 
mantra ``reentry begins at one--at day one'' is belied by the 
fact that the effects of incarceration are not measured. 
Through CP 2014, I came to understand that returning people to 
society after long incarceration without evidence-based 
individualized programming is like sending someone to an alien 
planet.
    One gentleman who was released reported being confused when 
someone told him they would call him on their BlackBerry. 
Another woman reported that she experience indignity because 
she didn't know how to wash her hands. When she was first 
incarcerated, sinks were not automatic.
    At most, we should send people home better. At least we 
should not make them worse. We also owe it to the victims of 
crime to make the people who committed crimes and served their 
sentences better before we send them home. If we take the 
extreme measure of removing someone from society because of 
their crimes, we should also take on the responsibility to 
first do no harm, especially since most hail from and return to 
marginalized communities.
    Far too often, measures like the mechanism to ensure 
effective implementation and assessment, it's not clear, for 
example, that all individuals are receiving the appropriate 
support and treatment consistent with best evidence on what 
works to reduce recidivism. For example, studies have shown 
that under certain circumstances, halfway houses can be 
ineffective or even harmful to a person's prospects for 
reentry. The right individuals, those who stand to gain from 
halfway houses, should matriculate through them.
    The Colson task force has recommended two oversight bodies. 
One would provide advice on the best corrections practice to 
ensure accountability and compliance, and the other would be a 
high-level working group to oversee and coordinate 
implementation of the reforms. The task force also recommended 
developing better system-wide performance measures that would 
be shared with the public. We need to know what's going on 
inside our prisons.
    And lastly, as reentry must start on day one, reentry 
doesn't end on the last day of custody. The myriad of 
collateral consequences that NACDL has counted, more than 
5,000, must relate--most relate neither to the conduct for 
which people were convicted, nor to public safety. Looking 
through the lens of public safety, a working group could 
identify those found to unnecessarily impede successful reentry 
as candidates work for appeal. Once we send a person to prison 
and they come out, we should stamp their receipt paid-in-full.
    This concludes my remarks. I look forward to your 
questions.
    [Prepared statement of Ms. Roseberry follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Thank you, Ms. Roseberry.
    Mr. Martin?

                  STATEMENT OF GLENN E. MARTIN

    Mr. Martin. Thank you. Good morning.
    Thank you, Chairman Gowdy, Ranking Member Cummings, and 
members of the committee and staff.
    I'd like for you to describe in one word the last person 
who sold you a pair of sunglasses or a pair of glasses. You 
might say ``man.'' You might say ``woman.'' You might say 
``young.'' You might say ``old,'' ``funny,'' ``enthusiastic.''
    Seventeen years ago, I left prison after serving 6 years, 
and I searched for a job. I visited 50 different employers. 
When I exited prison, I left with a quality liberal arts degree 
and about $100,000 in fines, fees, restitution, and child 
support.
    The third employer I visited, his name was Michael. And 
after two interviews, he said to me, ``You're the perfect fit. 
You're very articulate. I think you'll be able to sell 
sunglasses and glasses better than anyone else I've 
interviewed. I'm going to offer you the job.''
    Within 2 hours I arrived at home after the second interview 
to a voice message saying that he hadn't noticed that I put 
that I had a felony conviction on my application and that he 
was rescinding the job offer based solely on the criminal 
conviction. I should have applied for that job as a father, a 
brother, a son, a qualified job seeker. But those identities 
were taken from me because in America, everyone who stands at 
sentencing in a criminal court is sentenced to a lifetime of 
punishment.
    The fact of the matter is that we have a ceremony that 
brings people down in that moment, and we have no equal 
ceremony to bring people back up. We have left 70 million 
Americans in that moment.
    When I was released, policies like ban-the-box, policies 
like the ones the Fair Chance Act would promote did not exist. 
Today, I run an organization with over 50 staff positions and 
over 370 formerly incarcerated alums of our training seminars. 
Not once have I asked staff or trainees about their criminal 
history during the initial application process. I never needed 
to.
    I assess someone's preparedness based on their experience 
and on something far more meaningful and powerful, their 
humanity. But I am the exception, and because of that, because 
most employers cannot or will not see past a person's worst 
moment, the 6-plus million people who are currently under 
correctional control in this country will face the same 
barriers to reentry that I faced.
    One in three black men will relive the setbacks I was 
forced to endure, despite their best efforts at building 
towards redemption. We know reducing recidivism means 
eradicating these barriers, something that ban-the-box and the 
Fair Chance Act can help us to achieve.
    But Jennifer Doleac, despite lacking lived experience and 
the cultural competency needed to design and interpret her own 
research, wants to tell you what you should do to help us. In 
her research, Ms. Doleac says that the ban-the-box policy 
increases discrimination in employment. She blames these 
policies for creating what we've known to exist in our country 
since its founding, racism.
    Ms. Doleac argues that casting aside the scarlet letter of 
criminality hurts black people because then employers will just 
assume that all of us have something to hide. Her argument 
seems to rest on the idea that killing ban-the-box policies 
will help the few black men who have not been branded, 
shackled, and caged in our justice system because their 
comparative goodness will allow them to stand out.
    This argument against ban-the-box and the Fair Chance Act 
urges you to set aside these ideas--set these ideas aside so 
that the ``good and well-behaved black men'' might succeed, 
while the millions of us who have been marginalized by decades 
of tough on crime policies are discarded like trash. Well, the 
piece of trash you see sitting in front of you now helps 50 
people build families, strengthen communities, and contribute 
to our tax base in America.
    Discarding qualified and motivated job seekers is not 
justice. That's not how to make America great again. This 
exclusion fundamentally contradicts the values enshrined in the 
document you are sworn to defend and uphold.
    The Fair Chance Act and ban-the-box policies work. They are 
part of the solution that will help all of us. They are crucial 
pieces of holistic reform needed to reduce recidivism and to 
start undoing decades of bad policy that have led to our 
current state of mass incarceration. They are the first steps 
in building a smarter and safer justice system.
    More importantly, to me and millions of others, ban-the-box 
was started by formerly incarcerated people in a storefront in 
Oakland, California, and made it all the way to the halls of 
power. The power of this policy as a tool to educate and 
inspire employers and policymakers is immeasurable. I urge this 
Congress to consider the Fair Chance Act before you adjourn and 
to hear and elevate the often-ignored voices of the people who 
have been most impacted by that law in your guiding 
deliberations.
    I'm happy to answer questions. Thank you for the 
opportunity.
    [Prepared statement of Mr. Martin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Thank you, Mr. Martin.
    I usually ask my questions last. So I would ask the 
indulgence of my colleagues on this side. There is another 
hearing next door that I am expected at.
    Professor Doleac, I received a phone call over the weekend 
from Cory Booker, who is very interested in this bill. He took 
a little different approach than one of your former panelists--
or one of your current panelists in critiquing your research, 
but I think the underlying questions are the same.
    So why don't you take a minute and explain to us why you 
think what is being proposed has the opposite impact?
    Ms. Doleac. So there have now been two very good studies 
looking at the impacts of the unintended consequences of ban-
the-box and two studies looking at the impacts of ban-the-box 
on people with criminal records. Both meet the very high, 
rigorous standards of the academic literature here where the 
primary concern is isolating the effect of the policy from 
underlying and completely separate economic trends and other 
factors that might be driving employment outcomes.
    The main concern about ban-the-box is that if employers 
don't want to hire people with criminal records and we tell 
them they can't ask, then they are going to try to guess. And 
because having a criminal record is so highly correlated with 
race and, especially a recent conviction, with age and having--
whether you have a college degree, in the United States, it's 
pretty easy to statistically discriminate against young black 
men who don't have college degrees.
    And you know, with all due respect to Mr. Martin, the 
evidence simply contradicts what he thinks is going on. The 
idea that--that our research is simply revealing that racial 
discrimination is a problem, of course, racial discrimination 
is a problem. But before ban-the-box, more young black men were 
getting jobs than were after ban-the-box. This seems to have 
reduced--reduced employment for this group and not helped them.
    Chairman Gowdy. All right. Well, I am in a very unusual 
spot among Members of Congress, which is I am open-minded. I 
haven't made up my mind. I have watched men leave State and 
Federal prison and desperately try to get a job, and the only 
job they could get in my hometown was washing other people's 
cars.
    And thank God for William Hunt and other people who took a 
chance on these guys that have already paid their debts to 
society. I am not talking about people convicted of violent 
offenses. I am not talking about people being convicted of 
crimes against children. I am not even talking about bad check 
writers and others who have a hard time rehabilitating 
themselves. I am talking about nonviolent drug offenses.
    And we say, okay, you have served your sentence. You have 
got to go get a job. You have got to meet your societal and 
familial obligations. And they can't.
    So let us assume your research is correct. Let us assume 
there is a reason you are a professor and I am not. That you 
are smarter and that you know how to do studies and interpret 
other people's studies. Let us just assume that. I don't think 
there will be any contradiction on any of that.
    What do you propose? What would work? For those of us who 
don't want--we just passed a bill on evidence-based rulemaking 
not a month ago. Congress, I think almost unanimously, passed 
a--passed a bill that we are going to use evidence and facts 
upon which to base our policies. And what you are arguing is if 
you do that, you won't take this approach.
    Let us assume for the sake of argument that you are right. 
What approach works?
    Ms. Doleac. Great question. So, so what this policy is 
hoping to achieve is that we're hoping that by preventing 
employers from asking about a criminal record, they won't care 
about the criminal record anymore. That's really the goal of, I 
think, everyone in this room. We want employers to be willing 
to hire people with criminal records, and the question is how 
do we--how do we help them do that?
    So, so the real goal is to try to figure out what employers 
actually care about, what they're worried about when they see 
the box checked on a job application, and then find policy 
interventions that can directly address those concerns. If 
employers are worried about work readiness, if they're worried 
that--that, you know, the average person coming out of prison 
has much higher rates of substance abuse and mental illness and 
is very likely to be rearrested in the near future, finding 
ways to--to really invest in rehabilitation so that they don't 
have those associations with a criminal record anymore.
    That's going to take time. That's the longer-term goal of, 
I think, everyone here, and it's going to take investment of 
real resources. In the shorter term, I think the best way to 
reach the goal that ban-the-box and the Fair Chance Act would 
have reached in helping those who are qualified for jobs get 
jobs is finding ways to provide additional information about 
their work readiness to employers.
    One--one policy intervention that's been tried in a few 
different places, and it seems very promising, and research 
evidence is supporting that it's having the effects we hoped 
for, is employability or rehabilitation certificates. So if you 
have a criminal record and you can go in front of a judge and 
argue that you've been rehabilitated, there have been very nice 
audit studies showing that if you send out job applications 
randomizing if you have a felony conviction or a certificate of 
rehabilitation or no conviction at all, those with the 
certificate are called back at equal rates as those without any 
conviction.
    I've heard that those are extremely difficult to get. That 
can be changed. That's obviously something that is adjustable. 
But the very--the basic idea of providing more information 
rather than taking information away seems far more promising.
    Chairman Gowdy. Well, I am out of time. I hope you will 
continue to do your research. You know, most of us live in a 
world of anecdote. We don't have the luxury of doing studies.
    I can tell you in my own life, including with one of your 
panelists, the very first time I met Inspector Horowitz, he 
told me something that I otherwise never would have known. 
Never would have known. It wasn't an important thing.
    But the fact that he was willing to tell me something that 
I really wasn't entitled to know, he went up 10 stages in my 
mind just because he was willing to tell me something. It 
actually had the opposite--it made me trust him, like him, want 
him to get the job even more.
    Has there been any research into that? Into people who say, 
you know what, you are going to find this out at some point, 
let me be the one to tell you. Because I can imagine employers, 
even if it is the law, human nature being what it is, may 
wonder at the end, why didn't you tell me this up front?
    Is there any--is there any--and I know you are not a 
psychologist, but is there any research into how the listener 
hears information volunteered from the very person that it 
could hurt being the one who volunteers it?
    Ms. Doleac. I don't know of any research on that. 
Anecdotally, I've heard that the guidance that individuals 
coming out of prison are given is generally to be upfront. When 
they get the interview, to be upfront about their criminal 
history and to explain, you know, what happened and what 
they've learned from it and the steps they've taken to change. 
But I don't--I don't know of any research on that. So ----
    Chairman Gowdy. All right.
    Ms. Doleac.--at this point, just anecdotal.
    Chairman Gowdy. I really mean it when I say this is my last 
question, all right? Negligent hiring is a civil cause of 
action in some States. So for employers who don't want to wait 
on the Government, who want to do it themselves, what 
protections are afforded them when plaintiff's attorneys, as 
they do from time to time, find even an isolated incident where 
an employer didn't ask and something--something bad happened, 
and they are confronted with a negligent hiring case?
    How do we protect those employers that want to--that want 
to do what Mr. Martin and Ms. Roseberry are advocating for? 
With or without us doing it, they want to do it. How do you 
protect them from civil causes of action?
    Ms. Doleac. I don't think we have a really clear answer to 
that yet. It's another area where these employability or 
rehabilitation certificates seem very promising. You know, 
these are court-issued certificates that say this person has 
been rehabilitated and is no longer a risk. And so to the 
extent that a negligent hiring lawsuit is accusing an employer 
for putting their customers and other employees at undue risk, 
if the worst happens and someone that they hire who has a 
criminal record commits a violent crime on the job--I think 
that's the worst nightmare of any employer--then they can take 
that certificate and say, look, I did everything I was supposed 
to do. This judge said that this person wasn't a risk. There is 
no way I could have known.
    So thinking of creative solutions that, in effect, shift 
the risk from employers to the courts or to government I think 
is probably the best way to deal with this negligent hiring 
concern. And it's not just the legal liability, but it's also 
worries about bad press. Even if they know that they wouldn't 
actually lose a lawsuit, they could face very negative media 
attention that could put them out of business, and that--that's 
the catastrophic risk that employers are worried about.
    Chairman Gowdy. The gentleman from Maryland?
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Now come on, let us not kid ourselves. The elephant in the 
room is racism, and it is a big elephant. Now, Mr. Martin, I 
don't have it at my hand--I wish I did. But I have read studies 
where it showed that a white person with a record had a better 
chance of getting a job than a black man without a record. Are 
you familiar with that?
    Mr. Martin. I'm not only familiar with that study, I ----
    Mr. Cummings. Can you keep your voice up, please?
    Mr. Martin. Sorry. I'm not only familiar with the study, I 
served as the project manager on the study. It was the audit--
the largest audit study ever conducted in America to date, when 
that research happened. The principal researchers were Bruce 
Western and Devah Pager of Princeton at the time.
    And we visited 3,500 different employers in the entry-level 
labor market. We actually hired young men--white, black, 
Hispanic--to serve as job seekers. And so we sent them out into 
the labor market with resumes that were manufactured by us that 
showed some evidence of them having involvement in the criminal 
justice system.
    And after visiting 3,500 different employers and doing 
thousands of audits, yes, the finding was that a white person 
with a criminal record has a better chance of getting employed 
than a black person without a criminal record who is similarly 
situated with respect to their employment history. And you 
know, the question by Chairman Gowdy about how do we respond to 
employer concerns about liability? Those concerns are 
legitimate. I've done many focus groups to really dig in on 
what employer concerns are, and liability ranks number one.
    But for instance, the New York City Bar Association was 
able to draft a piece of legislation that gives employers 
rebuttable presumption when they consider the EEOC guidance and 
New York State's anti-discrimination law, which somewhat 
mirrors each other, essentially saying that you should be 
giving qualified job applicants a chance to explain evidence 
rehabilitation, how long since the criminal conviction, what 
have they done since the criminal conviction to rehabilitate 
themselves, and so on. So there are other policy prescriptions 
that we can have in place to respond to employer concerns.
    Certificates of relief I would totally discount, 
particularly because they are so difficult to get, and to 
suggest that we can sort of easily change that, I've doing this 
work for 17 years, much of it legislative reform, many bills 
that I have drafted and advanced in legislatures myself, it is 
not easy to change those pieces of legislation. I have not been 
successful with one in my 17-year career, to be quite frank.
    Mr. Cummings. You know, as you were talking, I couldn't 
help but think about years ago, when I--maybe about 3, maybe 4 
years ago, I visited Johns Hopkins Hospital in Baltimore. And 
so I drove up, and I noticed they had this security firm 
checking everybody out. They were better--to me, they were just 
as good as the Secret Service.
    And so I asked the guy, I said, ``Is this a new firm?'' And 
it was a firm which was established by former inmates, and all 
the employees were former inmates, and they were doing a hell 
of a job.
    You know, Mr. Martin, how important is it to be free of the 
stigma of a criminal record when applying for a job? How 
important is that?
    Mr. Martin. Thank you for that question.
    Thirteen years after exiting prison, I was invited to the 
White House to meet with senior policy advisers to the then-
President. And after 2 months of background checks and 
everything else it takes to get into the White House, when I 
got to the White House, I find out that my 21-year-old 
conviction meant I couldn't enter the White House.
    And while most formerly incarcerated people may not ever 
get invited to the White House, I was struck that day by what 
the implications were for a person who is 21 years away from 
his conviction, invited to the White House, has done work to 
help so many people at places like the Fortune Society 
supported by Member Maloney and others, couldn't get access to 
that place. And I wondered what it meant for the men and women 
who were exiting prison that day who were trying to get a job 
at the local Starbucks or McDonald's or somewhere else.
    The fact of the matter is that we have created an entire 
underclass of citizenship in this country, and this Government 
has a responsibility to respond to that.
    Mr. Cummings. And how important is ban-the-box policies in 
reducing recidivism? You know, I heard Ms. Doleac, and she 
doesn't seem to feel, based on her research, that this is--that 
it helps. She says it hurts. I mean, I just want to know your 
response to that.
    Mr. Martin. Sure. Well, first of all, we need to parse her 
research because if I give her research credit, then it's only 
one small section of job seekers with criminal records where 
she found evidence that they're being hurt by this. There are 
many other categories where she actually admits that those 
folks did better as a result of the policy.
    But I don't want to lose the fact that we would not be 
having this discussion again today if formerly incarcerated 
people did not create this ban-the-box policy in Oakland, 
California, as a way to educate policymakers about the 
importance of creating job opportunities for people with 
criminal records. I cannot understate what it means to want to 
apply for a job, to know that you're qualified, and to have the 
chilling effect of the question about the criminal record on 
the application.
    Remember, we--there are things that we actually cannot 
measure, and it doesn't mean that they're not important. But 
you cannot measure the job seeker who has a quality 2-year 
liberal arts degree that he or she learned--or earned in prison 
as a result of Pell Grants, when they were eligible actually 
not applying for a job because of the fact that we live in a 
country where the labor market doesn't create access for job 
seekers who have a criminal conviction.
    We can't measure that, but it should be important to this 
country. The chilling effect alone of the criminal record would 
be removed if we had this ban-the-box policy in place.
    Mr. Cummings. In 2015, I first introduced the Fair Chance 
Act with then-Chairman Issa and Senator Booker and Senator Ron 
Johnson. This bill would codify the existing OPM rule that 
prohibits Federal agencies from requesting criminal histories 
for certain nonsensitive jobs until after conditional offer of 
employment.
    Mr. Martin, do you think that OPM's current guidance has 
had a positive impact on ex-offenders?
    Mr. Martin. I think it's had a positive impact. You know, 
granted, my response here is anecdotal. I've spoken to people 
who have found the courage to apply for jobs based on the fact 
that this policy is in place. I also recognize that efforts 
made by the Federal Government, the Federal Government speaks 
with a megaphone and sends a very strong message to States and 
cities, where the majority of people in this country are 
actually incarcerated and under correctional supervision.
    And so if for no other reason alone, a message from the 
Federal Government about the importance of qualified job 
seekers having a chance to compete for employment, I think it 
was President Bush that said it well during the 2004 State of 
the Union address that this is the land of second chances, and 
we should give an opportunity for people to turn their lives 
around and be contributing members of society.
    Mr. Cummings. It would be--it would be political or 
legislative malpractice if I didn't ask this question. In the 
African-American community, there is a term that I hear over 
and over again, ``the prison industrial complex.'' There is a 
belief that there are folks who are making money and trying to 
create private prisons or whatever in their neck of the woods 
so that they can keep the economy going.
    And we have, of course, seen some 60 Minutes stories that 
bear some of that out. But I just want your comment and then 
yours, Mr. Inch, on that.
    Mr. Martin. You know, prisons throughout the '80s, '90s, 
and early 2000s were the most effective stimulus program for 
rural communities that lost industries. The fact of the matter 
is that many governors across the country promised prisons to 
communities that were losing other industries.
    I have a brother--I grew up in poverty. I grew up on public 
assistance, single mother, two brothers. My older brother 
fought in four tours of duty, active, in war. Ultimately became 
a correction officer for 10 years and is now a U.S. Marshal. My 
brother is one of the 3 million people who benefit from the 
criminal justice system that we've currently created because it 
propelled him from poverty into upper middle class.
    I think that, yes, there are private prisons that exist 
that benefit from the incarceration particularly of people of 
color and who have--in the past, there is much evidence of them 
promoting policies that have led to increased incarceration and 
mass incarceration. But I don't want to lose sight of the fact 
that the perverse incentives that have led to that 
commercialization of punishment exists and started in our 
Government-run prisons and jails.
    And so everything has grown alongside each other. While we 
have said we are working to end mass incarceration, the fact of 
the matter is that we have grown everything--probation, parole, 
electronic monitoring, you name it. And so the footprint of the 
criminal justice system has disproportionately impacted people 
of color, yes. But it also disproportionately impacts 
particularly poor white Americans.
    When you compare us to any other country in the world, 
white Americans are equally disproportionately impacted by mass 
incarceration in the criminal justice industrial complex.
    Mr. Cummings. Mr. Inch, and then I thank you very much. I 
appreciate it.
    Mr. Inch. Ranking Member Cummings, just so I can have 
clarification, are we talking the private prison industry or 
the array of our Federal prison system?
    Mr. Cummings. Both.
    Mr. Inch. Both. Okay, thank you, sir.
    One can certainly look--and I'll focus really on those 
private prisons we use and then the array of 122 Federal 
installations. One can look over time and location and see that 
the placement of the facilities was based on a variety of 
reasons that may have been above and beyond the most effective 
and efficient use of that particular facility.
    If I were speaking only as a practitioner, only as a 
practitioner, which, you know, would be inappropriate for all 
the decisions that go into the placement of Federal 
installations, we certainly look at the population base of the 
location to ensure large enough population base to hire not 
only the correctional officers, which would be an entry level 
to the facility, but also the technical psychologists and the 
like of the facility. That's a consideration.
    There's a consideration of placement. Certainly, it's 
already been mentioned here and was mentioned in opening 
comments, the aspect of connection with families, the 
importance of that. In my opening comments, I talked about 
victims. There's victims of crime. There's victims among us, 
staff, and there's the forgotten victims, which are the 
families of the offenders.
    So the placement where visitation can be facilitated with 
the inmate population, certainly that's an aspect, too. There's 
even logistics reasons.
    All that has to be balanced with other considerations that 
are placed at least in the Federal system in which then the 
money is certainly authorized and the placement decided. So I 
can only speak then from the practitioner.
    Chairman Gowdy. The gentleman yields back. The chair will 
now recognize the gentleman from Alabama, Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman. I really appreciate 
all of you being here, sincerely, and the topic of this 
hearing.
    Prior to Congress, I ran a think tank for 25 years, and 
this is one of the areas that the last 2 or 3 years that I was 
there we were focused on. And looking at the material and 
particularly the release preparation program, one of the things 
that I didn't see was a concerted effort to help inmates 
achieve either a high school diploma or a vocational degree or 
an associate's degree that would really--it would do two 
things, Mr. Martin. It would prepare people to enter the 
workforce, but it also gives them that ceremony.
    I mean, it is--I really appreciate what the chairman has 
said about, you know, you don't want to be soft on crime. But 
at the same time, when someone has paid their debt, that debt 
is paid, and they ought to be able to reenter society.
    Ms. Roseberry, I was looking at the information in the 
Colson task force report, and the thing that I didn't see in it 
was recommendations for a program to help inmates achieve a 
high school diploma or another degree. And when you look at who 
is in prison--again, back to what Mr. Martin said--it is 
disproportionately poor people, regardless of color. And it is 
disproportionately people who are high school dropouts.
    And one of the reports shows that 68 percent of State 
inmates are high school dropouts. And that is regardless of 
race, gender. This is something I am more focused on finding 
solutions, and I think the solution is before they go in the 
prison door, and then unfortunately, we have got to focus on 
how we get them out the prison door.
    And looking at the Colson task force, one of the things 
that I was looking for is one of the things that we have 
suggested in Alabama, to this point to no avail, was to utilize 
online learning programs. I mean, there are excellent 
opportunities for people to achieve a high school diploma, to 
get an associate or vocational degree, networking with 
businesses who are prepared to hire these people when they come 
out.
    We are at a point in our economy right now where there is 
competition for workers and particularly workers with certain 
skills. But also--and going back to the Colson task force, I 
had the great privilege to know Chuck Colson, a godly, 
wonderful man--to integrate into that these faith-based groups 
that can help prepare them for reentry. Do you want to comment 
on that?
    Ms. Roseberry. Yes. First of all, I'd like to say with 
respect to your comment about the front end, you're absolutely 
right. If we're talking about, for example, ban-the-box 
creating the presumption that African-American men have more 
connections with the criminal justice system, perhaps the 
solution is to stop overpolicing those communities and 
incarcerating those individuals to begin with.
    But the Colson task force did look at the fact that the 
Bureau of Prisons staff were spread thin by virtue of 
overcrowding, and we made the recommendation that because we 
found waiting lists, for example, for GEDs to be years long and 
the opportunity to be eligible for programs to be put on the 
back end of the serving of a sentence, and also for lifers, 
there was no eligibility. We made the recommendation that the 
Bureau of Prisons incentivize participation in these programs--
of course, after reallocating resources--so that those programs 
could be provided to everyone.
    Also in our recommendation that programming be 
individualized, be evidence-based, data-driven, and 
individualized, you would see that folks who needed educational 
programming would have an opportunity to get it by virtue of it 
having been identified for them.
    Mr. Palmer. Let me address that. There was a report from 
the Alliance for Excellence in Education that reported on 
underserved students. They are disproportionately poor, 
regardless of race. There is over 1,200 of those schools. In 
New York, there were 199 of them. These are schools that have 
very high dropout rates.
    And again, going back to the dropout rate and then the 
information from the Bureau of Prisons, it shows that inmates 
who leave prison who do not have a high school diploma, their 
recidivism rate is 60.4 percent. So when I talk about on the 
front end, this is outside of the purview of the Bureau of 
Prisons, obviously. It is all about how do we put more emphasis 
on helping particularly young African-American males stay in 
school? That is a pathway to a better future.
    But for those who are incarcerated, I really believe we 
ought to look at a way to incentivize. If I may, Mr. Chairman? 
Mr. Horowitz, you were talking about there is no incentive for 
them to enter the program. To incentivize by looking at if 
these inmates who have not committed violent felonies who are 
going to be paroled, that if they achieve a high school 
diploma, they are eligible for an earlier release. If they 
achieve an associate or vocational degree.
    That creates an incentive, Mr. Martin. It gives them a 
goal. It gives them a vision for a future that, frankly, I 
don't think exists right now in our prisons. Would you like to 
comment on that, anybody?
    Ms. Roseberry. I'd just like to reiterate that the task 
force did recommend incentivizing these programs, even for 
those who are serving life, and suggested that the reward for 
them could be better confinement conditions, et cetera. And for 
others who have a release date, that the release date would be 
moved back with good time.
    Mr. Martin. Just briefly, two things. One, it was a 
correctional counselor who said to me I should go to college 
after I got my GED.
    Mr. Palmer. You were a high school dropout?
    Mr. Martin. Yes. And so I earned that GED. And while he was 
looking at those test scores, said to me, ``You should go to 
college.'' So as important as the degree was, you're right. 
There was a bit of a moment where another human being in a 
position of authority who was seeing hundreds of people that 
day saw something in me that I might not have even seen in 
myself in that moment. So there is the value of that and 
everything else that comes from education.
    There's also the piece about the conditions of confinement. 
The fact of the matter is that facilities that have more 
programs do better with respect to safety of correction 
officers. Why? Because the people who are serving time there 
want to take advantage of those opportunities, and also the 
folks who may not yet be college ready or even ready to get 
their GEDs have something to look forward to and to look up to. 
I can't tell you how many people I helped to actually get their 
own GED after being in college while I was incarcerated.
    Mr. Palmer. Mr. Chairman, there is a report--and I am sure 
Mr. Martin and Ms. Roseberry, maybe everyone on the panel is 
familiar with--from Pew, the Collateral Costs: Incarceration's 
Effect on Economic Mobility. It is the very thing that Mr. 
Martin has been talking about.
    There is also an article that young black men without a 
high school diploma are more likely to be found in a cell than 
in a workplace. And I just want to emphasize that I think we 
want to make sure that our society is safe, that law 
enforcement is able to do its job. But at the same time, there 
is a reality that we have got to recognize that most of these 
people are going to reenter society, and I don't think we are 
doing enough to prepare them for that.
    And I yield back.
    Mr. Russell. [Presiding] The gentleman yields back.
    And the chair now recognizes the gentlelady from the 
District of Columbia, Ms. Holmes Norton.
    Ms. Norton. Thank you very much. I very much appreciate 
this hearing from the ranking member and the chairman.
    I have a question for Mr. Inch, but I really also want to 
get to these, what I see are some competing studies here 
because I very much respect scholarship. I was a tenured 
professor of law, and so I have got to somehow reconcile with 
them.
    Mr. Inch, the Bureau of Prisons is considered the best 
prison in the world, and there are many thoughtful programs. 
You hire people in the Bureau of Prisons who have advanced 
degrees. In light of the quality of personnel at the Bureau of 
Prisons, and I know I will be seeing you about D.C. inmates 
shortly, until recently--this is before you came, people on 
home confinement even were charged 25 percent of anything they 
happened to make, imagine people who have just gotten out of 
prison, to pay back to the Bureau of Prisons.
    Some of that was gotten rid of before you came. But now if 
you are in a halfway house, which is, of course, imprisonment, 
you are still not released from prison, you are still charged 
25 percent. I don't know why you don't just charge them 25 
percent for being in jail.
    How can you possibly reconcile charging people who happen 
to get a job 25 percent of anything they make to give back to 
you, the Bureau of Prisons, rather than to their children, 
rather than to their families, and rather than to keeping 
themselves out of jail?
    Mr. Inch. Thank you, Congresswoman Holmes Norton, and I'm 
sorry we had to delay our meeting.
    Ms. Norton. That is quite all right. It was my fault.
    Mr. Inch. It actually was a loss in my family.
    So the use of RRCs, actually, this is something new I'm 
learning. In the military corrections, we did not avail 
ourselves of the Federal program, and I need to bound my 
comments by of our 223 facilities, I've been to one during this 
first 90 days. It was actually in Baltimore and really 
appreciated the reception I received there, the insights, and 
the contract provider that actually runs quite a few of our 
residential reentry centers, they were kind enough to come up 
as well.
    The aspect specifically that you asked for in terms of ----
    Ms. Norton. Paying 25 percent of it, if you happen to get a 
job, which most people don't get one.
    Mr. Inch.--25 percent if ----
    Ms. Norton. What is the rationale, given how research-based 
most of your policies are? What is the rationale? Because I got 
to get to this ----
    Mr. Inch. Yes. So the rationale--I'm sorry. Then the 
rationale is real-life budgeting. The aspect that ----
    Ms. Norton. Is what?
    Mr. Inch. Real-life budgeting. That with employment ----
    Ms. Norton. I see.
    Mr. Inch.--that a portion of that employment actually has 
to go to living expenses and all that. So, say, at the end of 
the 4-month period ----
    Ms. Norton. But he doesn't give 25 percent of his--25 
percent of his salary to an outside party. So if he has got to 
budget, wouldn't you rather him budget for his family?
    Mr. Inch. Well, the aspect is--I would argue the aspect is 
that real aspect of our budgeting upon then release from the 
residential reentry center is, in fact, going to be for housing 
and for food. And so building that into the budget during the 
period of transition seems appropriate to me.
    Ms. Norton. I don't understand that you have answered my 
question, but I am going to see you shortly.
    Look, there are--Ms. Doleac, I respect your study, and I 
particularly respect studies that contradict one another in the 
academic environment. And there is a study by Terry-Ann Craigie 
for ban-the-box even with what are some of the findings you 
have made. Now, for me, I am going to need more rationale than 
I thought I would need for ban-the-box.
    You say the best evidence--this is your testimony--suggests 
that ban-the-box does not increase employment for people with 
criminal records and might reduce it. I got to take that 
seriously.
    You also say, and again, I am reading from your testimony, 
``While white applicants were called back at nearly the same 
rate as before, black applicants were called back at a rate in 
between the rates at which those with and without records were 
called back before ban-the-box. This may help black men with 
records, but it hurts black men without records.''
    So my question for you is, do you believe your sample was 
broad enough? And with the Craigie study, the study that I just 
indicated, essentially her response was, look--I would agree 
with her. Look, racial discrimination is even worse. So you got 
to deal with racial discrimination. But as I see it, both forms 
of discrimination are captured in your study, and you don't 
find that anybody gets helped with ban-the-box.
    Would you somehow reconcile what you are saying with what 
she is saying?
    Ms. Doleac. Sure. So just to clarify, the studies that I'm 
talking about in my written testimony, there are actually four 
different studies. So I'm not finding all of those things in my 
own study. The--the evidence that ban-the-box reduces 
employment or reduces employment for black men or, at the very 
least, doesn't help them comes from two very nice studies now 
that link criminal history records with employment records, one 
in Massachusetts and one in Seattle.
    The study in Massachusetts compares people who are affected 
by ban-the-box when Massachusetts implemented the policy with 
folks who--with a very similar control group that is not 
affected by ban-the-box, and they find that employment falls 
for individuals with criminal records after ban-the-box goes 
into effect.
    This is consistent with new qualitative evidence from a 
graduate student at UC-Irvine, Dallas Augustine. She's been 
spending the last couple of years talking to people coming out 
of jail and prison and finding that, you know, what I think a 
lot of us would know anecdotally. It's extremely frustrating to 
go through a job process and build rapport with an employer and 
get a conditional offer, maybe even work for a probationary 
period, and then not get the job when they finally check your 
criminal record.
    And ban-the-box increases the likelihood that that happens 
for anyone who actually does get their foot in the door. And so 
to the extent that that discourages people and they just give 
up and stop looking, you know, I think a lot of people would 
rather know up front if they're not going to get the job 
because they have a criminal record.
    The study by Terry-Ann Craigie I know well. It's a working 
paper. I think it at this point does not credibly isolate the 
effect of ban-the-box from other employment factors. There is--
this is the main challenge that economists work very hard to--
to overcome is figuring out what the impact of a policy is 
separate from the impact of just underlying economic trends and 
other factors that might drive employment.
    At this point, she has a treatment and control group, and I 
think, to get a little bit wonky, the challenge is to show that 
your treatment and control group look very similar before the 
policy is passed so that you know you have a good 
counterfactual. So you know you have a good idea of what would 
have happened in a place that passes ban-the-box if the place 
hadn't passed that policy.
    At this point, her study is not able to show that. You 
know, it's a working paper, still a work in progress. I'm sure 
she'll figure that out.
    Ms. Norton. Mr. Chairman, I would like to have that study 
introduced into the record, and I would like to say that the 
notion has to be taken very seriously that ban-the-box ends up 
with race being used as a proxy for discrimination. So I am 
very interested in the kinds of research that your hearing has 
uncovered and in further research into this area.
    Thank you very much.
    Mr. Russell. The gentlelady yields back, and without 
objection.
    Mr. Russell. The chair now recognizes the gentleman from 
Kentucky, Mr. Comer.
    Mr. Comer. Thank you, Mr. Chairman.
    My questions are going to be directed toward Director Inch. 
Recently, there have been closures of some reentry centers and 
a significant number of inmates whose referral dates to the 
reentry centers have been shortened or canceled. What is 
administration's commitment to reentry services going forward?
    Mr. Inch. Thank you, Congressman Comer, for that question.
    Of course, as I came on 3 months ago, it was at this time 
where certainly in media and in the framework or what was being 
presented was a perception of changing administration focus. I 
can assure you that's not the case, certainly not in my first 3 
months of experience.
    We had a lot of learning in the RRC administration, 
actually with the help of OIG and, of course, the good look, 
the good recommendations that we received. The closing of the 
16 facilities, which really the correct way to say it is the 
not executing option years of contracts, or not renewing 
contracts, really was dealing with the efficiency of the 
system. Underused facilities or facilities that were of a 
contracting type that it really wasn't the optimal.
    We've done a lot of work to create a standard statement of 
work in contracting. So we are looking to the efficiency of the 
system. Those 16 facilities accounted for about 1 percent of 
the bed space. Coupled with that perceptions that come was 
bringing other RRCs back within capacity gaps that our 
contracts added.
    Mr. Comer. I am going to switch gears now. Next questions 
are going to be about drug abuse. How big a problem is drug 
abuse in the Federal prisons, and what are you doing to curb 
drug abuse and addiction in the Federal prisons?
    Mr. Inch. Thank you for that question.
    So in my experiences in corrections, certainly again that's 
been on the military side and then very active interaction with 
professional organizations in corrections. The aspect of 
decision-making is obviously influenced by--can be influenced 
by addictions, drug, alcohol, other addictions. And so, as I do 
an assessment of the Bureau's reentry programming writ large, 
you know, the aspect of cognitive behavioral therapy with other 
aspects, frankly, I'm very impressed with RDAP, the Residential 
Drug Abuse Program. We have both nonresidential, residential 
within the facility.
    In my early visits to different facilities, I've made a 
point to go to both English and Spanish-speaking RDAPs and am 
impressed with the program both in my discussions with staff 
and the inmates.
    Mr. Comer. What role do residential reentry centers have in 
inmates obtaining drug treatment?
    Mr. Inch. Congressman, if it's possible if I could get back 
with you specifically on that?
    Mr. Comer. Absolutely.
    Mr. Inch. I think it ties in with our new statement of 
work, but I probably need to ----
    Mr. Comer. Okay. No problem. My last question, how big of a 
challenge is preventing drugs or other contraband from entering 
into prisons, and what is the Bureau doing to prevent this?
    Mr. Inch. Oh, thank you for that question.
    It is a reality in the corrections profession since the 
start to this day, of course, is the aspect of countering the 
introduction of contraband. The seriousness of the type of 
synthetics primarily, not primarily, but certainly the 
seriousness of the introduction of synthetic drugs absolutely 
affects safety. And so our commitment to both using 
technological and procedural ways to address the introduction 
of contraband is a daily commitment and effort within the 
Bureau.
    Mr. Comer. Thank you, Mr. Chairman. I yield back.
    Mr. Russell. The gentleman yields back.
    And the chair now recognizes the gentleman from 
Pennsylvania, Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And I want to thank all the panelists for joining us today. 
We have had a fascinating discussion.
    And I want to--I want to thank you, Ms. Roseberry, for 
mentioning our Secretary of Corrections in Pennsylvania, John 
Wetzel, who was appointed by a Republican governor and was kept 
on by the succeeding Democratic governor. I know Secretary 
Wetzel to be a very competent and capable head of our prison 
system in Pennsylvania.
    And I also appreciate your mentioning, Ms. Roseberry, the 
importance of keeping correctional staff safe, and it is a 
particular concern of mine. We have had some ugly incidents in 
Federal prisons in Pennsylvania, and so I want to take it up 
with you, Director Inch, if I may? I realize you are still 
pretty new on the job, and maybe this is the right time to 
catch you while you are still wrapping your head around the 
process.
    But this is something that I am very deeply concerned 
about. The Federal Bureau of Prisons has previously testified 
that the mission-critical staffing levels established by the 
Bureau are the bare minimum employment levels necessary safely 
to operate a prison.
    Right now, the administration of the Bureau is mandating to 
all facilities that they must lower their staffing levels to 88 
percent of mission critical. First off, were you aware of that?
    Mr. Inch. Thank you, Mr. Cartwright.
    First, just bringing to attention the issue and in terms of 
staffing levels, I am, yes, very aware of our staffing levels.
    Mr. Cartwright. Okay. So why is the administration 
mandating reducing staffing levels to 88 percent of mission 
critical, which is defined as the bare minimum employment 
levels to safely operate a Federal prison?
    Mr. Inch. Thank you, Mr. Cartwright.
    So to--really to frame my answer, part of my first 90 days 
was actually to go to Pennsylvania. I was able to go to the 
regional headquarters that's in Philadelphia, to visit also 
Lewisburg and Allenwood. The--I also took the opportunity--and 
Mr. Don Williams was very gracious also to sit down with me and 
give a personal anecdote. For those who may not know Don 
Williams, his son Eric Williams was a Federal Bureau of Prisons 
correctional officer who was killed in the line of duty. And so 
I very much appreciated how gracious he was to meet with me.
    So the aspect of staffing, as I've done staff recalls 
throughout those facilities I've been to in these first 90 
days, and that's 5 out of 6 regions, that is a consistent 
concern of staff as well as the leadership of the facilities. 
Though I cannot specifically answer on the process that 
resulted in the mission-critical staffing positions by 
facility, it is certainly a priority that I've already set is a 
relook at our staffing numbers ----
    Mr. Cartwright. Excellent. Excellent answer, and I want you 
to relook at that because we are talking about the safety of 
people like Eric Williams ----
    Mr. Inch. Absolutely.
    Mr. Cartwright.--and his coworkers. Now after the Federal 
hiring freeze policy was implemented, a large number of Federal 
Bureau of Prisons facilities are operating well below 
authorized strength. Many of these same facilities will, in the 
very near future, lose even more corrections officers and other 
critical staff due to normal attrition--retirements, 
relocation, things like that.
    This situation leaves some institutions in a potentially 
dangerous situation without the ability to resolve it by hiring 
more staff. Does the Bureau currently have a plan to remedy 
this, and if not, why not?
    Mr. Inch. Thank you.
    So in the current hiring freeze, my ability to gain waivers 
back up to the cap, I believe it was January of 2017, we've 
been very successful in obtaining our waivers, are in that 
process. And with that process of achieving the waivers, of 
course, from the front end, that starts the aspect of going 
through, you know, initial training and the like.
    But you're correct in identifying the importance of proper 
staffing in our facilities for safety and the--I would argue 
from a practitioner's, again, perspective is the challenge is 
it's facility by facility. You know, you just can't cookie 
cutter this because our facilities were built over a 100-year 
period. And so the safe application of if we want to use the 
term ``mission-critical positions'' does have an impact of the 
facility as well as the type of prisoners and programs we have 
at those facilities.
    Mr. Cartwright. Well, I thank you for that. And I want to 
just mention again. My other committee is Appropriations, and I 
am on the Commerce, Justice, and Science Subcommittee. We 
funded the Bureau's salaries and expenses funding level at just 
under 99 percent of what you asked for. So I urge you to do 
that relook on 88 percent of the bare minimum. By definition, 
that is woefully inadequate.
    And I yield back, Mr. Chairman.
    Mr. Russell. The gentleman yields back.
    And the chair now recognizes the gentleman from Wisconsin, 
Mr. Grothman.
    Mr. Grothman. Sure. I will start with Mr. Inch, but anybody 
else can jump in if they want to.
    The first question, what percentage of inmates that you 
release have jobs within a month of their release?
    Mr. Inch. Mr. Grothman, I don't have that statistic with 
me, but I'll work with staff and get that figure to you, your 
staff.
    Mr. Grothman. Hmm, does anybody know the answer to that 
question?
    [No response.]
    Mr. Grothman. Within a month of when they were--people 
were--I don't know how you can solve a problem if you don't 
have the data.
    But okay, next question. Among those people who get jobs, 
what type of jobs do they get? I mean, I was told--I was a 
legislator for a long time in Wisconsin, and we were told for a 
while that there were certain kind of tough jobs that, you 
know, employers were--would grab anybody coming out of prison 
to take because they couldn't find people to take these 
unpleasant jobs.
    But could somebody comment on the type of jobs the average 
person coming out of prison is getting? Mr. Martin?
    Mr. Martin. Thank you.
    In my experience, particularly while I worked at a public 
interest law firm speaking to not just formerly incarcerated 
job seekers, but also employers who were interested in hiring 
them, typically they're low income. They're high turnover. 
There are no benefits. Retail ----
    Mr. Grothman. That is not answering what type of jobs they 
are getting.
    Mr. Martin. I was getting there. I'm sorry.
    Mr. Grothman. Okay.
    Mr. Martin. Retail, construction, hospitality. However, I 
think the caveat there is that things change when the labor 
market gets tighter. So when it becomes a job seeker's labor 
market, I find that people have better opportunities. I also 
find that when people are credentialed, then employers are much 
more willing to consider a qualified applicant who has, say, a 
driver's license that has a certain credential that allows him 
to drive a truck.
    If that person has a clean CDL is the name I'm looking for. 
Sorry, a clean CDL license, for instance, an employer is much 
more willing to give them consideration and puts less emphasis 
on the criminal record. But traditionally, it's the sort of 
jobs that I just mentioned in those industries.
    Mr. Grothman. Okay. Next question, I guess I wouldn't know 
how you would know this if you don't know what is going on in 
your own system. But do you know which State systems do the 
best job of getting people a job within 1 month after they 
leave incarceration? Does anybody know?
    I mean, to me, it should be easy for the Federal Government 
to know what to do because we have 50 States out there who are 
operating things different ways. Does anybody have--take a shot 
at which States do a good job?
    Ms. Doleac. Well, I don't know the answer to that question, 
but I think the real issue here is that the data that we would 
need to answer the questions that you're asking don't exist. We 
don't have data on--we don't have certainly at a national level 
criminal history data linked with employment data. And so we 
don't even know how many people in the United States have a 
criminal record, much less where they live or what jobs they 
have when they can get them.
    Mr. Grothman. Well, it is kind of appalling, isn't it? We 
have got all these universities, all this graduate student 
stuff, and we don't even know the--I mean, it is kind of almost 
pointless to even have the hearing unless we know the answers 
to those questions. We should know, you know, the percentage of 
people who leave Federal prison, a month out of prison, what 
job do they get?
    We should know, we got 50 States, and this doesn't work in 
Tennessee or this does work in Iowa or whatever. And given the 
sea of money that is floating around here and the sea of money 
that we send to our colleges and universities to do studies, I 
just find it shocking that we don't have the most basic data 
that you need before you even address this problem. Isn't that 
kind of amazing? Kind of amazing.
    Ms. Doleac. Could I comment on that?
    Mr. Grothman. Yes.
    Ms. Doleac. I mean, I think that the--this is a challenge 
for the Federal Government. Honestly, the data would need to be 
collected and--and investment needs to be made at the Federal 
level. I know the Census is working on this. They have people 
who are spending a lot of time and money trying to look at 
these datasets. This is not--not ----
    Mr. Grothman. But even they don't because they are not 
going to break it down by State, okay? We should say X number 
of people were released from Illinois State prison system last 
year, and X percent had a job 30 days after they got out. We 
should have that information, but apparently, we don't.
    Looking--there have been some criticisms of the people, 
number of people in prison, and I want you to comment on this. 
I was just playing around because you have got everything on 
the Internet, and the murder rate kind of was really kind of 
wonderful like in the '50s in this country, and then it began 
to skyrocket up to the '80s. And then we began to put more 
people in prison, and the murder rate dropped again.
    Is it possible one of the reasons we had such a drop in the 
murder rate from the early '80s to, say, 2013 or whatever is 
because we put more people in prison? That it wasn't entirely a 
bad thing to have more dangerous people in prison. Is that 
possible? Is that one of the reasons why the murder rate 
dropped so much in this country, more bad people were in 
prison? Anyone care to comment on that?
    Mr. Martin. I'll take a swing at it. I live in New York, 
where we've cut our jail population in half in the last 20 
years. We've cut our prison population by 28 percent, and our 
crime rate, particularly our violent crime rate, is down to 
levels of 1961. So I think that actually contradicts the idea 
that you put more people in prison, you get more public safety.
    Having said that, I think your question was a little bit 
more nuanced about who we actually put in prison. I think that 
if we had more data, we'd be able to tell a story about whether 
locking up certain people for longer periods of time gets us 
better outcomes. But there is some research now that said--that 
says that there is the sort of law of sort of diminishing 
effect. The longer you have a person in prison, the more 
difficult time they have reentering society, and 95 percent of 
the people who go to prison come home at some point.
    Mr. Russell. The gentleman yields back.
    The chair now recognizes the gentlelady from New Jersey, 
Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Mr. Inch? Is it Inch? I am so sorry. I didn't hear them say 
your name.
    Mr. Inch. It is. Mark Inch.
    Mrs. Watson Coleman. Inch at a time. Okay. Is it true that 
the majority of the prisoners in the Federal system are there 
for nonviolent drug offenses?
    Mr. Inch. Thank you for that question.
    You know, during my opening statement, I identified the 
categories by which we had Federal inmates and recognized about 
40 percent we have at a custody grade of medium or high based 
not only on their current conviction, but their histories of--
histories of criminal history.
    Mrs. Watson Coleman. I am not sure you are answering. Could 
you just answer my question?
    Mr. Inch. Yes. So in terms of the actual statistics, my 
staff can provide your office the exact statistics ----
    Mrs. Watson Coleman. Do you have any sense that the 
majority of the prisoners that are in the system are there for 
nonviolent drug-related offenses?
    Mr. Inch. There's a philosophical aspect here is drug 
trafficking a nonviolent or a violent crime?
    Mrs. Watson Coleman. Okay. I can't have a colloquy with 
you. I am just going to ask you questions. You answer me 
questions.
    Mr. Inch. Yes. Okay. That's ----
    Mrs. Watson Coleman. So I am just going to ask you, however 
you categorize those prisoners in your system, if you can't 
answer that question, could you please, through our chairman, 
supply that information?
    Mr. Inch. Yes, I'll certainly supply the exact statistics 
of our inmate population.
    Mrs. Watson Coleman. Okay, thank you. All righty. Thank 
you.
    What is your feeling about the change in the 
administration's position with regard to the use of private 
prisons?
    Mr. Inch. Okay. Thank you for that, that question as well.
    So within the Federal system, when I was in the military 
and doing military corrections, we did not use private prisons. 
So do not have an informed opinion from that experience.
    Mrs. Watson Coleman. Okay.
    Mr. Inch. But I am obviously aware that we do use private 
prisons as one of the tools kind of in our toolbox addressed 
primarily to low inmates, alien low, though, of course, we also 
use a private facility for D.C. inmates.
    Mrs. Watson Coleman. Thank you.
    My understanding is that there are other sort of entities 
and partners who look at this and observe this situation, 
including the IG, who said that these prisons, these private 
prisons are less safe, less secure, are more problematic for 
the safety and security of not only the inmate, but the staff. 
Do you have an awareness of that, and are you in agreement with 
that?
    Mr. Inch. So I'm certainly aware of the report, the 
experience that we have on the Federal side with our contracts 
and with the population. The challenge, and I believe the 
report identified that, is the challenges of doing comparisons. 
When you try to compare different types of inmate populations, 
it's just an apples-to-oranges comparison.
    Mrs. Watson Coleman. So since you think that there are less 
violent, less problematic inmates placed in the private 
prisons, you would think that there would be less incidences of 
insecure activity. So I am going to ask Mr. Horowitz what your 
finding was?
    Mr. Horowitz. Well, our private prison review, which 
identified a number of the issues that you reference, 
Congresswoman, caused us concern about BOP's oversight of the 
contract prisons, as you know from the report. Concerns about 
staffing that was going on at these private contract prisons 
not meeting the contractual requirements. The contracts not 
being reviewed for quality assurance purposes and those sorts 
of things.
    So we found very significantly that, at a minimum, if 
private prisons were going to be used, BOP needed to do a 
better job of overseeing them.
    Mrs. Watson Coleman. Thank you.
    You know, I have exactly one minute left. And this is an 
issue, this whole issue of prison, prison reform, criminal 
justice reform, reentry, making sure we have evidence-based 
programs that we are moving our inmates through so that when 
they come back--and the majority of them do come back--they are 
ready, willing, and able to take on their positions as good 
citizens.
    Thank you, Mr. Martin. You are a fantastic witness. And 
thank you for your work.
    And Dr. Doleac, is that right, Doleac? Your work concerns 
me, or your conclusions concern me because it is almost as if 
let us not do anything that makes sense for those who are 
vulnerable because that would just create greater 
discrimination against those who are vulnerable but have no 
record. And I say that has to do with the enforcement of the 
law against discrimination, and we ought to be more diligent 
and vigilant in that. And to do otherwise is to throw the baby 
out with the bath water.
    And Mr. Chairman, I would just like to say that this is a 
very important hearing that we need to explore from various 
levels, from what is happening when you are in prison, how do 
you divert from the prison, and what do you do on the way out? 
And so I ask you, through my ranking member, that we devote a 
whole hearing to that.
    And I thank you very much, and I yield back because I am 
over my time.
    Mr. Russell. And I thank the gentlelady. And I think, given 
the bipartisan interest in this matter, that we certainly could 
use a lot more time for deliberation. And the gentlelady yields 
back.
    And the chair now recognizes the gentlelady from Florida, 
Mrs. Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    And thank you to all of our witnesses who are here with us 
today.
    First of all, I want to say I cannot agree more with my 
colleagues who talked about the importance of education and 
keeping persons from going to prison in the first place and, if 
they do, giving them a fighting chance once they are released 
from prison. As a former police chief, it is an issue that I 
looked at quite a bit, and I have asked the question over and 
over again, could reducing our prison population be as simple 
as ensuring that our young men in particular have the ability 
to graduate high school or receive an equivalent if they do 
not?
    We have also talked quite a bit today about information, 
data, the importance of it or the lack thereof. You all know 
that last year, the Government Accountability Office released a 
report that basically said the Bureau of Prison lacks adequate 
information to effectively evaluate its programs. And based on 
the lack of answers that some of my colleagues were able to 
receive this morning, it looks like the GAO office is correct.
    Ms. Mauer, I would like to ask you, how effective do you 
believe the Bureau of Prisons has been in collecting and 
tracking key program data?
    Ms. Mauer. Thank you for that question.
    We found that that's tended to vary depending on the type 
of program. As a general proposition, the BOP is very good at 
keeping track of the number of individuals they have within the 
system, where they're located, what their security level is, 
sort of the basic, fundamental information you need to run a 
correctional system.
    However, where we--a common theme we found across a number 
of our reports is that BOP and the Department of Justice have 
often lacked the ability to assess the impact of their 
programs. They don't necessarily know whether they're working 
effectively. And we found that specifically when it came to 
residential reentry centers and home confinement, as well as 
reentry programming.
    Mrs. Demings. Director Inch, do you agree with those--with 
that statement?
    Mr. Inch. Ma'am, I think it's a very compelling argument. I 
do understand the difference between a measure of performance. 
You know, we say this is what we do, and here is the facts, as 
opposed to a measure of effectiveness. It's a very legitimate 
comment.
    Mrs. Demings. How important--or has improve in oversight 
and accountability been part of your review of the major 
policies within the Bureau of Prisons?
    Mr. Inch. Thank you, Congresswoman.
    Yes. You know, within my first 90 days, the taking a very 
close look, especially within our Reentry Services Division, of 
how we not only address programs and focus the priorities of 
the program. I think the better way to describe it, though, is, 
and I'm just starting to spiral into that. There's level upon 
level upon level because of the complexity, frankly, of that. 
But, yes, it certainly has my focus.
    Mrs. Demings. Ms. Roseberry, as a member of the task force, 
I know you all as well made several recommendations. How 
important do you believe those recommendations are to the 
overall success of what we are trying to do? And if you could 
talk a little bit about your perception of those 
recommendations that have been implemented or not?
    Ms. Roseberry. Thank you for that question.
    We think that our recommendations are integral to the 
success of the Bureau of Prisons and ultimately to the citizens 
who matriculate through them. We've not found that many of them 
have been implemented up to this point specifically with 
respect to programming and individualized assessments, which, 
of course, has a direct impact on reentry.
    We did find that one of the largest drivers of 
overincarceration were the low level or the nonviolent drug 
offenders and recommended that prison beds be reserved only for 
those who are very serious offenders and that we use diversion 
and other programs to provide corrections measures to people 
who have committed infractions.
    Mrs. Demings. I know one of your recommendations was to 
establish an oversight board. Has that board been implemented 
as of yet?
    Ms. Roseberry. It has not. And as I mentioned in my 
comments, transparency is an important part of our prisons. We 
need to know what's going on in our prisons.
    I recently spoke with a professor who'd studied both French 
and American prisons who said to me that the only way we know 
what's going on inside American prisons is if some lawyer files 
a lawsuit or if a reporter takes a look at it. We deserve to 
know what is going on inside our prisons.
    Mrs. Demings. Director Lynch--or Inch, I am sorry, I know 
that 90 days can be a short time or a long time depending on 
where you are. But do you intend to implement this 
recommendation to have an oversight review board?
    Mr. Inch. Thank you, Congresswoman.
    Actually, that particular recommendation isn't for the 
Bureau of Prisons to implement. Certainly that would be a 
departmental decision above me.
    Mrs. Demings. What is your opinion of the oversight review 
board and the purpose that it would serve?
    Mr. Inch. So my initial impression seeing that, one, this 
is my first hearing I've ever been at, and it's called an ----
    Mrs. Demings. Congratulations.
    Mr. Inch. Yes. And it's called an oversight committee. I 
recognize I'm under oversight. The reports that I've certainly 
read by--from the Office of Inspector General and from the GAO, 
I find that they are very direct in their observations and very 
detailed, and I value that. I would argue that's oversight, and 
I can assure you my boss is involved in my life.
    Mrs. Demings. So you have not ruled out that possibility?
    Mr. Inch. I have personally not requested an additional 
oversight mechanism, bureaucratic or otherwise, at this point.
    Mrs. Demings. Okay. Thank you. I have run out of time.
    Thank you so much, Mr. Chairman.
    Mr. Russell. The gentlelady yields back.
    The chair now recognizes the gentlelady from Illinois, Ms. 
Kelly.
    Ms. Kelly. Almost done. Director Inch, I wanted to know, 
have recent cuts in halfway house services affected inmates' 
ability to transition back to their communities at a facility 
close to home?
    Mr. Inch. Thank you again for the question on our 
residential reentry centers, a very important part of our 
program, and we are absolutely committed to it.
    The reports, of course, of not executing option years or 
contracts of underutilized RRCs got a lot of attention in the 
past few months. That was primarily done for the efficiency of 
the system. You know, we have a clear spend plan. And the 
underutilized facilities are where we had facilities that were 
of a contractual type that was, frankly, not efficient, and we 
had other facilities within the region to pick up the 
requirements. I assure you it was not to signal any less 
commitment to the use of that program.
    Ms. Kelly. Okay. And what is being done to ensure that 
inmates are sent to prison facilities within a reasonable 
distance of their home. I am from the State of Illinois, the 
Chicagoland area, even though mostly in the south suburbs of 
Chicago, and I hear that complaint a lot.
    I am not just saying about Federal prisons, but a lot about 
there is a lot of people from the Chicagoland area that get 
sent downstate, and it is very difficult for their families to 
visit and a lot of different things that go along with that.
    Mr. Inch. Thank you, Congresswoman.
    Well, I grew up in Wheaton, and you'd probably call me 
downstate, too.
    Ms. Kelly. No, I live in Matteson. So I don't ----
    Mr. Inch. So, of course, with our array of Federal 
facilities, and in Illinois, I believe we have five, I've 
visited Thomson here in my first 90 days. But drawing back to 
the general, the whole aspect of inmate designation, we have 
consolidated that within the Bureau of Prisons, our designation 
center is actually in Texas, Grand Prairie. That takes into 
consideration absolutely the--well, a variety of aspects. But 
as you would expect, being close to home is a positive.
    In my initial statement, I talked about one of our 
stakeholders being victims, and I divide the victims between 
victims of crime, and there is aspects of what we do that it 
relates to those victims. Victims among us. That's the staff 
and inmates that are victims. And what I would call, personal 
term is forgotten victims, and that's the family members of the 
offenders.
    And so having very strong bonds between the offender and 
their family. Sometimes there's reasons why that can't be, but 
is important. So, but we look at programs, custody grade, 
health requirements. We have four levels of health 
requirements. It's quite complex. But the aspect of being close 
to family, that's one advantage of our Federal system of 122 
facilities is it improves that capability.
    Ms. Kelly. So, I mean, is it a very low percentage of 
people that aren't within the 500 miles or a great distance 
away, or do you feel like you have a handle on that issue?
    Mr. Inch. So I feel we have a handle. But allow me to get 
back with--to staff on the exact statistics of the number of 
inmates that are within 500 miles, recognizing if they are 
outside that, there's often a very good reason for that.
    Ms. Kelly. Did you want to say something?
    Ms. Roseberry. Yes. I'd like to just say that, you know, to 
these poor and marginalized communities, 500 miles might as 
well be 2 million miles away from home.
    Ms. Kelly. I know. That is a long way.
    Ms. Roseberry. And also with respect to D.C. Code offenders 
who are housed within the Bureau of Prisons, they are typically 
farther away than 500 miles.
    Ms. Kelly. Okay. Thank you.
    And I think my colleague from Wisconsin brings up a good 
point. I would like to know which States, you know, we feel 
have best practices. And when I think about Illinois, and you 
said you were from Wheaton. So there is something called the 
Safer Foundation, I don't know if you guys are familiar, that 
help people coming out of jail get jobs, and they seem to do a 
good job at that. And it seems like we need to study and 
research and analyze, you know, what is working because, I 
mean, it is ridiculous the amount of people we have in jail and 
the reasons, you know, they are in jail.
    I think about the State of Washington and Colorado and what 
people are allowed to do there. Then we have people in jail, 
you know, for, you know, smoking marijuana. Now, you know, in 
some places, it is okay to do it.
    So, but I do think we need to look at each State and look 
at best practices and what can be duplicated. Some things 
can't. Like in Illinois, we have ban-the-box, which I think is 
excellent that we did that. So, you know, that helps. But I 
think we definitely need to take a closer look and hear 
recommendations from you.
    I yield back.
    Mr. Russell. The gentlelady yields back.
    We do appreciate the panel being here today, and with six 
of you, obviously, we have been indulgent a little bit on time. 
So I appreciate you doing that, but you are not done yet. I 
have my own sets of questions.
    But I am grateful. I think everybody here not only is 
committed to helping solve the problems. It might come from 
different viewpoints or angles.
    And General Inch, thank you for your continued service to 
our country not only in your previous life, but now you are 
doing something easy like taking on the Bureau of Prisons. So 
we are grateful to your continued selfless service, and welcome 
to your first hearing.
    It seems to me that coupled with recidivism, 
overincarceration, my State, in Oklahoma, we have one of the 
highest rates of incarceration per capita. But we also have, at 
least with State agencies, a ban-the-box provision, where we 
have tried to address and look at this. But I think coupled 
with that is--is our judiciary branch and its examination on 
how we look at sentencing. You know, we seem to have an 
incarcerative justice system rather than a restitutive justice 
system.
    And until we address that--and then, as lawmakers, many 
times, I think we--wanting to be tough on crime and all of 
these things, I think ofttimes we tie the hands of the equal 
branch of Government being the judiciary, where judges can have 
latitude in their courts. Not every case is the same. Not every 
background is the same. Not every propensity for future 
criminal behavior is the same, even though the crimes might be 
identical. We have to take that on as well as a part of that.
    I think, if I may start with you, Mr. Martin, and thank you 
for your work in highlighting these issues, you know, as a 
business owner that manufactures firearms, I have even made a 
hire where we had somebody with a criminal record, which is--
you know, can be risk taking and complicated, given what we 
manufacture. You know, I am thinking as from an employer end, 
okay, say we have a ban-the-box provision, but then it is like, 
``Okay, Mr. Russell, tell me about your work history in the 
last 5 years.'' And then I am like, ``Well, you know, I haven't 
been working in the last 5.'' ``Well, why not? Where have you 
been?''
    I mean, so how do we--yes, we have a ban-the-box type of 
provision. But at the same time, we also are kind of placing 
the applicant in a situation where really the applicant is 
going to have to divulge what has been going on if they are in 
that first 2-year at-risk period trying to come out and look at 
employment. Could you address that?
    Mr. Martin. Sure. So here is where I give credit for--to 
the Second Chance Act and the sort of reentry infrastructure 
that it's created around the country because programs like 
Safer, Fortune Society, a number of others around the country 
are in the business of helping job seekers understand how to 
have that conversation with employers. If you asked me if I 
were an applicant now for a job just out of prison, yes, I 
would take ownership over the conviction, but I'd spend a lot 
more time talking to you about what I've done since then by way 
of evidence of rehabilitation, whether it was drug and alcohol 
treatment programs or, in my case, access to a liberal arts 
degree or those sort of things.
    So we're not going to solve all of the problems with ban-
the-box, and I'm actually glad you brought up the fact that a 
conservative State has moved forward with ban-the-box because 
there's actually a number of more conservative States that have 
done so. But I think that, you know, we got here through a 
million cuts, and it's going to take probably just as many 
antidotes to get us out of this. And one of them is ban-the-
box, but another one is investing--continuing to invest in 
reentry programs through the Second Chance Act that do the job 
of preparing people for that interaction.
    And what I don't want to get lost in this conversation is 
something that the chairman said before he departed, which is 
let's talk about human beings and how they operate, right? Like 
we can look at the research, we can look at the data, but we 
also know that we have done a great job of dehumanizing the 
people that go into the system, whether it's violent, 
nonviolent, and everything else on the spectrum.
    And that continued interaction between prospective employer 
and prospective employee, I think ultimately we will look back 
and realize that we have done a lot to rehumanize those folks, 
even if it means that every single person doesn't get the job.
    Because people will--I visited 50 different employers. I 
guarantee you that maybe a third of them I probably wasn't even 
qualified, but just very desperate for a job opportunity. But 
at the same time, the interaction, I don't want to devalue the 
value of that.
    Mr. Russell. Well, thank you for that. And I do have some 
additional questions as we close out, but I will go ahead and 
yield back and recognize the gentleman from California, Mr. 
DeSaulnier.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    And let me first associate myself with the ranking member's 
beginning comments. I am afraid that historians will look back 
in our policy towards corrections and look at it like Michelle 
Alexander expressed in The New Jim Crow, that this is a period 
clearly driven by policy that had a lot to do with fear and 
racism and the challenge this country continues to have. And 
all, based in my opinion, on one very important political TV ad 
in a presidential campaign of which the author of, Lee Atwater, 
apologized on his deathbed.
    So in that context where we have come to realize that we 
have made a mistake, I think, in a bipartisan way, Mr. 
Horowitz, having spent a lot of time in my previous job in 
California knowing that we were going to have a Supreme Court 
decision that said that we had to let 45,000 of our almost 
200,000 State inmates out, knowing that the system was driving 
the State towards bankruptcy at that time, knowing that all the 
outcomes were bad, having spent time in various State 
correctional facilities and talked to people who would tell--
who had worked there for 35 years and told me with pride what 
the department used to be like when they had vocation programs.
    When, jokingly, people would want to get in a vocational 
program that was in a prison, and they would have to tell them 
the only way they could get in was to get arrested and 
sentenced to that facility. And then talking about how policy 
and politics changed those institutions.
    And then because of that decision, we were required to 
change, and so far the history that we have done, based on 
everything I have heard from the panel today, is implementing 
evidence-based research, making sure that when those inmates go 
back to mostly urban counties that they have transitional 
housing, that they have behavioral health, that they have 
vocational training. And lo and behold, our recidivism rate is 
going down.
    So how do we share that information? Part of what changed 
California was Washington State. So how does the Federal 
agencies look at what other countries and specifically what 
other States have done for 20, sometimes longer. In Washington 
State, we would bring their Institute of Public Policy down and 
tell California, its neighbor who was supposed to be so 
innovative, what we needed to do to change. And we pretty much 
just copied what we already knew worked in Washington State.
    So how are we sharing all this robust information in a 
nonpolitical, objective, and here is the real point, and doing 
it in a quick period of time? I am actually sort of shocked 
that California has done it as quickly as it has because 
changing those cultures is seems to me to be the largest 
obstacle. So can you tell me a little bit about how we share 
what should be obvious?
    Mr. Horowitz. That's an excellent question, Congressman, 
and something we've been doing more of, and I think it's 
incumbent on the BOP to do more of, what we've talked about 
today. There are 50 State correctional systems out there, and 
frankly, many of them are far ahead--excuse me, far ahead of 
the Federal system.
    One of the things our teams have been doing as we've been 
doing these reviews, and I know GAO does this as well, we're 
going to the largest State systems to see what they're doing, 
California generally being among them. But we've got Texas, 
Florida, Georgia, New York. I can go on and mention several 
other States that are both in more conservative parts of the 
country, less conservative parts of the country, and you see 
them moving forward on reentry programs.
    Some of the programs the congressman just mentioned, 
Oklahoma, other States that are moving forward in the way that 
I think the Federal Government has not done a good job of 
recognizing, realizing are out there, and need to do. And we're 
certainly committed continuing to do that, whether it's on 
reentry, whether it's on preventing contraband. We've looked at 
also--I'll just add, we haven't talked much about this--Federal 
Prison Industries. Giving people a vocation.
    We did a review on this a couple of years ago and the 
dramatic drop at the BOP in the use of the Federal Prison 
Industries. And study after study will tell you that giving 
inmates who've never had the kind of training we've all talked 
about, vocational skills is critical. Yet that program has not 
been sufficiently supported, and I'm not sure, frankly, the 
fault is entirely on the BOP.
    I think there's a lot that needs to be discussed about that 
with Congress as well. That has been troubled and challenged 
because of various laws, funding, et cetera, but I don't--I 
don't think anyone would disagree that if people go to jail 
without a skill, it's in all of our interests to get them a 
skill.
    Mr. DeSaulnier. I appreciate that. Thank you, Madam Chair--
Mr. Chairman. I apologize for that. I yield back.
    Mr. Russell. The gentleman yields back.
    And if I may, before I recognize the ranking member, Ms. 
Mauer, do you have some comments along that line as well? 
Because I know you all have been working hand-in-hand on a lot 
of that?
    Ms. Mauer. Yes, absolutely. I definitely agree with what 
the Inspector General said. In the reviews that we've been 
doing at GAO on things like solitary confinement, correctional 
officer safety, overcrowding, we were looking predominantly at 
the Bureau of Prisons. But as part of our audit work, we also 
looked at what the States were doing, and we found that that 
was valuable and insightful information.
    I'd also like to give a shout-out at the Federal level to 
the Federal Interagency Reentry Council. You know, GAO doesn't 
typically issue reports where we talk strictly about good news, 
but we had a report about 3 years ago that looked at positive 
examples of interagency coordination, and that interagency 
council was one of four across the Federal Government that we 
highlighted as exemplary in terms of its best practices at 
coordination.
    It brought together all the different Federal agencies who 
have some role in reentry. So I'd like to mention that as well. 
But I think the broader issue is definitely one I'd like to 
agree with, which is that there are a lot of innovative 
practices that are going on at the State level that can be 
instructive for the Federal prison system.
    Mr. Russell. Thank you for that.
    And the chair now recognizes the ranking member for his 
additional comment.
    Mr. Cummings. Thank you very much.
    I just--I want to go back to something, Mr. Chairman, if 
you don't mind. The halfway houses, it is my understanding that 
there is some efforts to cut back on halfway houses, and can 
you explain the rationale with regard to that, Mr. Inch?
    You may have already said it. Maybe I was out of the room, 
but I didn't--I don't remember hearing it.
    Mr. Inch. The--I did, but certainly saying it again. There 
is absolutely no intent to cut back in the program. It's an 
essential program to our system and reentry. The 16 facilities 
that were certainly reported in the media really was an aspect 
of creating efficiencies within the system.
    These were aspects of not renewing option years or 
contracts that were not efficient in areas where we had 
capability in other facilities. Coupled with that, and this 
was, again, based on the Inspector General report, was that we 
need to do a better job of managing our contracts with the 
RRCs. So those 16 does not signal any lessening of our belief 
of the importance of the program, and I'm committed to running 
it very efficiently and to the capacity that is necessary for 
the population.
    Mr. Cummings. Well, the Baltimore RRC is the largest such 
facility on the east coast.
    Mr. Inch. Yes.
    Mr. Cummings. And, but the occupancy has fallen sharply due 
to recent BOP cuts. The facility was given essentially no 
notice to prepare for these cuts. Now this facility is 
struggling to meet its costs.
    Director Inch, can you explain the decision to cut services 
at the existing RRCs, such as Baltimore facility, and does the 
BOP intend to close more RRCs?
    Mr. Inch. Again, thank you for asking that question. It's a 
very fair ----
    Mr. Cummings. Is that--that is where you visited, right?
    Mr. Inch.--question, and I did visit it. And I have 
personal knowledge on that.
    Mr. Cummings. Okay, good.
    Mr. Inch. So, first, is it our intent to cut back on our 
program? Absolutely not. Specifically with the Baltimore 
facility, very impressed with the facility and the contract 
provider that runs that facility and others and fully recognize 
that that particular organization, of course, actually built a 
new facility to run their programs, and I think it's very well 
structured.
    So the overbuilt capacity, and frankly, because we had poor 
management controls at a time, we overfilled the contractual 
capacity. So we have in that particular facility, fully within 
the statement of work of the contract, we have brought it back 
down to that number. I suspect this is probably not an 
appropriate area to talk about actual contracting stuff.
    Mr. Cummings. No.
    Mr. Inch. But I'd be happy to come by your office later --
--
    Mr. Cummings. Yes, please do. Please do.
    Mr. Inch.--and really talk. But you know, I think that is a 
great facility, and I really ----
    Mr. Cummings. I think so, too.
    Mr. Inch.--appreciate the work they do.
    Mr. Cummings. All right. Let me close by saying this. I 
want to thank all of you for what you have had to say today, 
and I think that, you know, as I listen to the testimony, I 
think we all--we need to get back to the human side of all of 
this because it is extremely painful. It is extremely damaging 
to so many people.
    And by the way, it is just not the former inmates. It is 
their families that suffer too, big time. And so we can look at 
statistics here and statistics there, but let us not forget the 
human element of all of this, you know? And I often tell my 
children whatever happens to you, whatever has happened to 
you--good, bad, or ugly--before this moment prepares you for 
this moment. And you know, as I am sitting here, I just 
remember I taught in the penitentiary, State penitentiary. I 
taught inmates that had very long sentences.
    But I know, Mr. Martin, going back to something that you 
said, they had a sense of hope, and they got--I mean, these 
guys got degrees. Then we have Goucher, which is one of our 
small State colleges in Maryland, that has a program which I 
think President Obama started experimenting with using Pell 
Grants so that they could get their college degrees.
    And when we went to visit them, we discovered that a lot of 
the inmates were just so excited because there were inmates 
that were already going through the program in their second or 
third year, and then other ones were saying you know what, 
we're going to do everything in our power to get in the 
program, too. So that, too, when we think about things like 
public safety, I mean the people have a sense of hope, and they 
can see an avenue to getting to where they have got to go.
    And I believe--and just one second, Mr. Chairman, I will be 
finished. I believe that a lot of people are like going--our 
inmates, our former inmates are like going in circles. They 
come out, and they are on this circle, right? And they are 
looking for an exit to get to where they have got to go. They 
have dreamed dreams. They have said I am going to do better. I 
am going to take care of my family. I am going to do all these 
things.
    And then when they get out, not only are they--as has 
already been said, not only are they facing a new world. I 
mean, in today's world, you can be in prison for 5 years and 
the world has changed drastically. But they come out and face a 
new world, but then they are not equipped to do anything. Many 
are not educated.
    So some kind of way, I think it was Ms. Roseberry said we 
find a way to bring them down, but we don't find a way to bring 
them up. After we bring them--I mean, you get them there. And 
it is without a doubt, we become a part of the problem.
    You know, you say you don't want recidivism. You don't want 
recidivism. Well, you send somebody out--you send--you go out 
there and not--and every employer turn you away. And let us say 
you don't have more than a 10th grade education. Try that one.
    And then, and please don't be black. Try that one. Or poor. 
Try that one. And the next thing you know, you go--and so I 
have people come to me almost every--we do jobs fairs in my 
district. I have people come to me almost every week, probably 
sometimes three times a week, and this is what they say.
    They say, ``Mr. Cummings, Mr. Cummings, I can't get a job, 
man. I can't get a job. I want to do for my family. I can't get 
a job'' because of a record or whatever. And so all I am 
saying--and these people--and I want to be clear because I know 
some people will say, oh, he doesn't care about public safety. 
I do care about public safety. There are some people that need 
to be in prison and probably for a very, very long time.
    And the public needs to be protected, but at the same time, 
there are a lot of good people who make mistakes. All of us 
make mistakes at some point. Some of us just didn't get caught. 
And so, so we have got to figure out--figure this thing out.
    Other than that, we are working against ourselves. We put 
them in jail. Then they come out, and there is absolutely 
nothing that they can do. So why is it that I see people at 
2:00 in the morning selling drugs in 20-degree weather, 
probably not making much money. I mean, that is a job.
    And so I beg you, as the new guy on the block, new head of 
the team, I hope that you will look at some of the things that 
are being done, some of the really constructive things. And you 
know, I want us to be effective and efficient in what we do. 
You know, we can go, I mean, forever and forever and forever, 
going in circles, and never achieving a damned thing except 
going backwards.
    Thank you, Mr. Chairman. And thank you all very much.
    Mr. Russell. I thank the ranking member for his comments.
    Along this theme of recidivism, one of the things that the 
Federal system has come under criticism on has been with faith-
based educational and outreach opportunities. The States seem 
to do much better and are more open-minded toward these 
programs than we see in the Federal system or, by extension, 
the private prisons that are allowed to accommodate Federal.
    What--and this would really just be a general question for 
those, but I would like to start with you, General Inch. Where 
will this go? Because when you examine the recidivism rates for 
these that have been engaged in these programs, whether it is 
educational or to a degree or towards others, they are actually 
much higher than the general, the general population. So they 
are obviously working, to some extent.
    Could you comment on that?
    Mr. Inch. Thank you, Congressman Russell. Great question.
    So drawing back from previous experiences in military 
corrections, and I was the commandant of the disciplinary 
barracks, which is the Department of Defense's maximum security 
prison, we had a very robust volunteer program, both secular 
and faith-based. And I saw great value in that.
    The DB is kind of a one facility microcosm of what is now 
122 facilities. And both through education programs, amazing 
treatment programs, vocational training, I've certainly seen a 
framework, and I would add in--and this harkens a little bit 
back to the issue of cross-fertilization--I've been very active 
in the American Correctional Association for much of my career 
and only recently active in the Association of State 
Corrections Authorities that do a lot of cross-fertilization of 
these programs. So I'm very receptive to these programs.
    In my second week, when I was in Dallas visiting our 
regional headquarters, had the opportunity, for example, to go 
to the Texas Offender Reentry Initiative. I believe Bishop 
Jakes is--his church is the one that runs that particular one, 
just to see and learn. And I'm open to doing like things.
    Mr. Russell. Well, that is good to hear because I think, 
you know, as we explore all the possibilities, we certainly 
want to seize upon the things that work. None of them 
necessarily are compelled any more than, you know, some secular 
program. An inmate can choose not to get a GED completion, or 
he can choose not to get college courses. There is a number of 
things like that.
    Mr. Horowitz, home confinement. Going back to the theme on 
the restitutive justice vice incarcerative justice that our 
Nation seems to be so enamored with, what is the maximum amount 
of time a person can serve outside of prison once sentenced? 
And maybe General Inch will know this, but--and then, whatever 
the answer is, in your studies, I know in your report, you had 
noticed an underutilization in home confinement. So could you 
speak to that?
    Mr. Horowitz. Do you want to give the numbers first?
    Mr. Inch. Yes. Certainly on the statutory aspect of the 
home confinement, it's 6 months or 10 percent of the sentence, 
whichever is less. So that kind of bounds it in there.
    When you couple that with the residential reentry center, 
most programming that we target, though we can certainly take 
it up to a year, is a 4-month target. The idea is that in that 
4-month period, it provides the opportunity to make that 
connection in the community and--and work to find a job, then 
with that amount, of course, basic math is 4/4/4. That's the 
three people participate in that program for one bed space of 
the contract per year.
    Mr. Russell. Okay. So ----
    Mr. Horowitz. If I ----
    Mr. Russell. Yes, please.
    Mr. Horowitz. Just briefly on the underutilization issue, 
BOP has three choices with regard to inmates whose sentences 
are close to expiration. Keep them in jail and release them 
straight into the community, send them to an RRC, or send them 
to their home with an ankle bracelet so they can reconnect to 
their community from home, as opposed to an RRC. That's 
obviously far cheaper than either prison or an RRC.
    Our concern in our study was--in our review was that it 
seemed like the BOP's default was either keep people in jail or 
send them to an RRC even if there wasn't a demonstrated need 
for an RRC. And the result being that important bed spaces in 
RRCs were being taken by people who were low need, low risk 
instead of thinking ----
    Mr. Russell. If you could pause just a moment? Whoever has 
that, please silence the ----
    [Telephone ringing.]
    Voice. Sounds Irish.
    Mr. Russell. Is that somebody here in the hearing? Yes, 
please turn it off. That is disrespectful to the witnesses.
    I am sorry, Mr. Horowitz. Please continue.
    Mr. Horowitz. Thank you.
    The problem we saw was that the BOP wasn't thinking about 
who needed to be in which of the facilities. And so, in our 
view, they were sending people to RRCs who really should have 
been, it seemed to us, either staying in prison or going to 
home confinement. And the consequence of using the RRC was to 
take a valuable bed space for others who might need it, but 
never could be considered for it because the bed space was 
being taken by someone else in that position.
    And frankly, and many of the studies show that low-risk 
individuals like white collar offenders who don't need the 
services of an RRC, sending them there with other individuals 
who do could actually be more harmful than helpful to those 
individuals, and so we were concerned about that as well.
    Mr. Russell. Yes, they would see it as a delay to the 
support base that they already have and don't have that need.
    Ms. Maurer, would you care to comment on that as well?
    Ms. Mauer. Yes, just very quickly. In some of our work, we 
were looking at the role the Federal judiciary can play in home 
confinement, and we found that there were instances where BOP 
had worked on an arrangement with the pretrial and probation 
services office at the Federal courts for the courts to provide 
home confinement services that at the time of our review seemed 
to be significantly less than what BOP was paying its 
contractors to provide home confinement services.
    That's an option that could be explored for additional 
capacity and potential cost savings as well.
    Mr. Russell. Well, thank you for that.
    And I will now defer and recognize the gentleman from 
Missouri. However, this will be the last member that I will 
recognize out of respect to our witnesses and maybe their 
comfort. And so, with that, I recognize the gentleman from 
Missouri.
    Mr. Clay. Thank you, Mr. Chairman.
    And thank the witnesses for your indulgence.
    Director Inch, earlier this year, I joined several of my 
House and Senate colleagues in writing to you to request 
information about prison education programs, specifically the 
Second Chance Pell program and the Roadmap to Reentry 
Initiative. We received a response from BOP on October 27th, 
and Mr. Chairman, I ask unanimous consent that these two 
letters be made part of the official record of this hearing.
    Mr. Russell. Without objection.
    Mr. Clay. Thank you.
    Director Inch, BOP's response indicated that some of those 
initiatives have been abandoned. Can you elaborate which 
initiatives have been eliminated and why?
    Mr. Inch. Thank you, Congressman, for that question.
    I believe the aspect of that, and certainly this was prior 
to my arrival, was the planning that had been done with the 
idea of creating at central office level of a kind of a school 
board type arrangement, probably about 40 people. The decision 
was made prior to my arrival to not grow the central 
headquarters by those numbers, to use that as a structure by 
which to work our education program.
    So, for me personally, as I look at it, I'm absolutely 
committed to education. It's essential. It's important. You 
know, when I think of the story of Mr. Martin, and it's not the 
first time I've heard his story, it was absolutely inspiring 
that when he had an opportunity to speak to all the State 
corrections authorities last month and I was present, it was 
very inspirational.
    The importance of education I'm absolutely committed to. In 
this first 90 days, in this first year, frankly, as we are 
organized within our Reentry Services Division, I'll use the 
assets, I'll understand the strengths and weaknesses. But my 
commitment to education, you know, please don't worry about 
that.
    Mr. Clay. So creating a school district concept was rather 
expensive, to say the least. And so I guess that it is about 
resources. How would you stand up a program? And maybe you 
could share with us how many resources you would need in order 
to stand up some type of effective educational program?
    Mr. Inch. Sir, very fair question. I probably would not be 
able to do it any justice in my first 90 days.
    Mr. Clay. Okay.
    Mr. Inch. This will take, as in all the programs that I've 
been observing and as I--though I'm not new to corrections, the 
profession, at all, I am new to the Bureau of Prisons. So ----
    Mr. Clay. Okay, that is fair. But now there was a person in 
place to oversee BOP's educational services, and have you all 
had--do you have a timeline for replacing Amy Lopez?
    Mr. Inch. We do. The hiring process for our education 
director is ongoing, nearing--nearing completion.
    Mr. Clay. And so is that coming soon or ----
    Mr. Inch. Yes, nearing completion. Yes, sir.
    Mr. Clay. And you have replaced Amy Lopez?
    Mr. Inch. With the position and--in our current structure 
of how we supervise education, the senior person, that hiring 
action is ongoing right now.
    Mr. Clay. You know studies show that inmates who 
participate in correctional education programs have 43 percent 
lower odds of returning to prison than those who do not. Every 
dollar spent on prison education saves $4 to $5 on the cost of 
reincarceration. And so that should--should make you want to 
direct resources to effective education program, and hopefully, 
that is what your administration will be looking towards doing.
    Mr. Inch. I'm absolutely committed to education.
    Mr. Clay. Let me ask Inspector General Horowitz, are you 
satisfied with BOP's progress to date on the recommendations 
that were made in a report?
    Mr. Horowitz. I--I'm sorry.
    Mr. Clay. Go ahead. No, go ahead.
    Mr. Horowitz. They are making progress. There are several 
more steps they need to take to effect implementation. We will 
continue to oversee it, but I will say that we have long had a 
very good, close working relationship with BOP and them being 
responsive to our recommendations. So we certainly look forward 
to continuing.
    Mr. Clay. All right. I see my time is up. I thank you, Mr. 
Chairman. Thank the witness.
    Mr. Russell. The gentleman yields back.
    And my final question, General Inch, you are uniquely 
suited, given your military experience, given your experience 
in corrections and then now on this side. States have been 
trying to deal with veteran incarceration a great deal, even on 
the judiciary side. Do we have special courts that deal with 
special sets of circumstances? Do we look at the types of 
offenses and put that, you know, allowing once again our 
judiciary branch to have a little more latitude?
    Do you have any plans in your goals and objectives, as you 
come in with this kind of understanding, to try to address some 
of the issues? And then how we would reenter those veterans who 
unlike in the military prison system, where they may actually 
lose rights of an honorable discharge or different things, many 
of them outside after being honorably discharged are still 
entitled to their benefits and their decorations and things of 
that nature. So they could reenter under a bit different 
circumstances than if they were incarcerated in the military.
    Have you given much thought to this or about the direction 
to deal with that population?
    Mr. Inch. Thank you, Congressman Russell. I have, and thank 
you for your service as well.
    So I was actually pleased to find out that we have piloted 
a concept that in the corrections profession has been discussed 
for several years, and that's having veterans housing units. I 
had the good fortune, again in my previous life, but in 
association when I attended an American Correctional 
Association conference, that a facility--in this case, it was 
in the State of Indiana--where I was able to see their program 
and see how they ran their program.
    I spoke with the inmates in their housing areas. So I'm 
very interested in that program. I think, you know, in the 
aspects of treatment ----
    Mr. Russell. Would that be not the halfway houses, but 
actually ----
    Mr. Inch. No, that's inside the facilities.
    Mr. Russell. Inside. So that you would ----
    Mr. Inch. It would be an actual housing unit.
    Mr. Russell. Kind of like the commonality of barracks and 
routines and disciplines and that sort of thing?
    Mr. Inch. So, anecdotal, it was when I spoke with the 
inmates at that one facility in Indiana, actually a privately 
run facility, that the inmates talked about the aspect of trust 
and that they were then able to focus on their programming. And 
several that had been in different environments in housing 
talked about how that was different for them.
    So I think there's a lot of validity in looking at that 
concept. I'm always afraid to talk about that in the presence 
of a social scientist that will bring out the metrics. She 
intimidates me.
    [Laughter.]
    Mr. Inch. But that--but certainly, there is anecdotal 
aspects that are worth pursuing.
    Mr. Russell. And Ms. Doleac, you don't look terribly 
intimidating, but intellectually, we may all find ourselves on 
the wrong end, as the chairman has alluded to earlier. Would 
you like to comment on any of that?
    Ms. Doleac. No, I defer. I defer to the expertise of the 
Director.
    Mr. Russell. Okay. Thank you.
    Well, I want to say, you know, how grateful I am. This is a 
team effort. It is about our country. Mr. Martin, you bring out 
the human element of it, and I agree with the chairman and the 
ranking member that I think we forget that sometimes.
    But this can't be the gift that keeps on giving. As people 
pay their debt to society, it truly needs to be a forgiven 
debt. But unfortunately, culturally, we have a lot of work to 
do there. As people reenter, they have paid that debt. It just 
can't be the gift that keeps on giving and puts them in a 
difficult position.
    And with that, I would like to defer to the chairman for 
his comments.
    Chairman Gowdy. Well, Congressman, I want to thank you for 
filling in so ably for me while I was next door.
    I want to thank all of our witnesses. It is a super 
important hearing. I was bemoaning the fact next door that how 
important this issue is and how little attention there is in 
this hearing room. All of the attention is next door for 
important reasons, but this is important also.
    Professor Doleac, I want to ask you to do one thing I 
couldn't do myself, which is you have access to the brain power 
and the studies. If what is being proposed does not or cannot 
accomplish what I think everyone agrees is the ultimate goal, 
then what will work?
    Because I think there is a lot of sensitivity, regardless 
of politics, on helping people who have paid their debts to 
society have a chance to go on and have a constructive life 
that we all claim we want them to have. But if you can't get a 
job, all the other obligations in life are really hard to meet. 
So if this won't do it or can't do it, what can?
    And with that, I don't want to single you out. Inspector 
General Horowitz, from what I read, you have been busy lately, 
too. So I appreciate you coming.
    Everyone is busy. Everyone has very hectic schedules. I 
appreciate your expertise. I appreciate your comity with the 
committee and your collegiality and professionalism with each 
other.
    And I thank you, Congressman.
    Mr. Russell. And with that, this hearing is adjourned.
    Thank you.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
